<html>
<title> - H.R. 241, H.R. 290, H.R. 320, H.R. 441, H.R. 643, H.R. 686, H.R. 765, H.R. 850, H.R. 944, H.R. 1022, AND H.R. 1141</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                     H.R. 241, H.R. 290, H.R. 320,
                     H.R. 441, H.R. 643, H.R. 686,
                     H.R. 765, H.R. 850, H.R. 944,
                       H.R. 1022, AND H.R. 1141

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Wednesday, May 4, 2011

                               __________

                           Serial No. 112-28

                               __________

       Printed for the use of the Committee on Natural Resources




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
66-206 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 4, 2011...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement on H.R. 686...........................     2
        Prepared statement on H.R. 765...........................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona, Prepared statement of....................     3
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands, Prepared 
      statement on H.R. 1141.....................................     4
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................    35
        Prepared statement on H.R. 441...........................    35

Statement of Witnesses:
    Bachmann, Hon. Michele, a Representative in Congress from the 
      State of Minnesota.........................................    14
        Prepared statement on H.R. 850...........................    16
    Beaudet, Hon. David A., Mayor, City of Oak Park Heights, 
      Minnesota..................................................    37
        Prepared statement on H.R. 850...........................    38
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     7
        Prepared statement on H.R. 320...........................     8
    Campbell, Hon. John a Representative in Congress from the 
      State of California, Oral statement on H.R. 944............     9
    Ganz, Beth, Vice President of Public Affairs and 
      Sustainability, Vail Resorts, Colorado.....................    31
        Prepared statement on H.R. 765...........................    32
    Geissler, Curt, President, Lakeview Hospital, Stillwater, 
      Minnesota..................................................    44
        Prepared statement on H.R. 850...........................    46
    Harycki, Hon. Ken, Mayor, City of Stillwater, Minnesota......    40
        Prepared statement on H.R. 850...........................    42
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement on H.R. 290...........................     6
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota, Statement submitted for the record on 
      H.R. 850...................................................    58
        Letter from Hon. Will Rossbach, Mayor, City of Maplewood, 
          Minnesota, submitted for the record....................    60
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado..........................................    10
        Prepared statement on H.R. 643...........................    11
        Prepared statement on H.R. 765...........................    11
    Speier, Hon. Jackie, a Representative in Congress from the 
      State of California........................................    13
        Prepared statement on H.R. 1022..........................    13
    Wagner, Mary, Associate Chief, Forest Service, U.S. 
      Department of Agriculture..................................    29
        Prepared statement on H.R. 241, H.R. 643, and H.R. 765...    30
    Whitesell, Stephen E., Associate Director, Park Planning, 
      Facilities, and Lands, National Park Service, U.S. 
      Department of the Interior.................................    19
        Prepared statement on H.R. 290...........................    20
        Prepared statement on H.R. 320...........................    21
        Prepared statement on H.R. 441...........................    21
        Prepared statement on H.R. 686...........................    22
        Prepared statement on H.R. 850...........................    23
        Prepared statement on H.R. 944...........................    25
        Prepared statement on H.R. 1022..........................    26
        Prepared statement on H.R. 1141..........................    28


Additional materials supplied:
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Statement submitted for the record on 
      H.R. 241...................................................    55
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Statement submitted for the record on H.R. 
      850........................................................    56
    List of documents retained in the Committee's official files.    57
    Rossbach, Hon. Will, Mayor, City of Maplewood, Minnesota, 
      Letter submitted for the record by Congresswoman Betty 
      McCollum...................................................    60
    Schutt, Aaron, Senior Vice President and Chief Operating 
      Officer, Doyon, Limited, Statement submitted for the record 
      on H.R. 441................................................    60

                                  (IV)

LEGISLATIVE HEARING ON H.R. 241, TO AUTHORIZE THE CONVEYANCE OF CERTAIN 
        NATIONAL FOREST SYSTEM LANDS IN THE LOS PADRES NATIONAL FOREST 
        IN CALIFORNIA; H.R. 290, ``WAR MEMORIAL PROTECTION ACT''; H.R. 
        320, ``DISTINGUISHED FLYING CROSS NATIONAL MONUMENT''; H.R. 
        441, ``KANTISHNA HILLS RENEWABLE ENERGY ACT OF 2011''; H.R. 
        643, ``SUGAR LOAF FIRE PROTECTION DISTRICT LAND EXCHANGE ACT''; 
        H.R. 686, ``UTAH NATIONAL GUARD READINESS ACT''; H.R. 765, 
        ``SKI AREA RECREATIONAL OPPORTUNITY ENHANCEMENT ACT OF 2011''; 
        H.R. 850, TO FACILITATE A PROPOSED PROJECT IN THE LOWER ST. 
        CROIX WILD AND SCENIC RIVER, AND FOR OTHER PURPOSES; H.R. 944, 
        TO ELIMINATE AN UNUSED LIGHTHOUSE RESERVATION, PROVIDE 
        MANAGEMENT CONSISTENCY BY INCORPORATING THE ROCKS AND SMALL 
        ISLANDS ALONG THE COAST OF ORANGE COUNTY, CALIFORNIA, INTO THE 
        CALIFORNIA COASTAL NATIONAL MONUMENT MANAGED BY THE BUREAU OF 
        LAND MANAGEMENT, AND MEET THE ORIGINAL CONGRESSIONAL INTENT OF 
        PRESERVING ORANGE COUNTY'S ROCKS AND SMALL ISLANDS, AND FOR 
        OTHER PURPOSES; H.R. 1022, ``BUFFALO SOLDIERS IN THE NATIONAL 
        PARKS STUDY ACT''; AND H.R. 1141, ``ROTA CULTURAL AND NATURAL 
        RESOURCES STUDY ACT''.
                              ----------                              


                         Wednesday, May 4, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Lamborn, Rivera, Grijalva, 
Kildee and Garamendi.

        STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE 
               IN CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. The Subcommittee will come to order. The Chair 
notes the presence of a quorum which is outnumbered by the 
witnesses, but that is OK.
    The Subcommittee on National Parks, Forests and Public 
Lands is meeting today to hear testimony on several bills that 
fall within our jurisdiction. Today's hearing will cover a 
large number of bills; many are non-controversial, several have 
already passed the House in previous Congresses.
    Under the rules, opening statements are limited to the 
Chairman and the Ranking Member. However, I ask unanimous 
consent to include any other Members' opening statements in the 
hearing record if submitted to the Clerk by the close of 
business today. Hearing no objections, so ordered.
    I will actually forego my opening statement in order to go 
right to this and recognize the Ranking Member, Mr. Grijalva, 
if he has an opening statement.
    [The prepared statements of Chairman Bishop follow:]

        Statement of The Honorable Rob Bishop, a Representative 
            in Congress from the State of Utah, on H.R. 686

    This bill passed the House by voice vote last Congress. It was 
requested by the Adjutant General of the Utah National Guard and is co-
sponsored by Mr. Matheson and Mr. Chaffetz.
    The Utah National Guard is one of only a few states that met its 
recruiting and retention goals for the past several years. As a result, 
it is increasing its force structure end-strength by almost 600 
personnel. In part because of this steady progress, the Utah Guard has 
run out of fee land.
    This land transfer will open access to property along the major 
transportation corridor with all the utilities and services necessary 
to support expanded military use. This proximity to the main 
transportation corridor means fewer and shorter new road networks are 
required and the environmental impact of development and use by the 
Guard lessened.
    The lands transferred under this act are already withdrawn for 
military use by the Guard. Placing the land in the State's name for use 
by the National Guard consolidates ownership patterns in the 
headquarters area and allows the State of Utah to bond for future Guard 
facilities.
    The Utah National Guard already owns and operates several 
buildings, an air traffic control tower, and a tactical airfield on 
portions of this property. Transfer of title to these lands expedites 
the building and expansion of Camp Williams training facilities and 
reduces their cost.
                                 ______
                                 

        Statement of The Honorable Rob Bishop, a Representative 
            in Congress from the State of Utah, on H.R. 765

    H.R. 765, the Ski Area Recreational Opportunity Enhancement Act 
also has extensive bi-partisan support. It will create jobs and 
encourage wholesome, family outdoor recreation by giving the U.S. 
Forest Service authority to permit year-round activities and expand the 
range of snow sports at ski resorts on National Forest System lands.
    H.R. 765 updates the Ski Area Permit Act of 1986 to reflect the 
range of recreational activities that are taking place today. Change is 
needed to recognize that newer sports such as snowboarding are now 
enjoyed in addition to alpine and nordic skiing.
    Additionally, the bill would authorize the Forest Service to allow 
year-round activities beyond the winter months. These changes will 
bring increased stability to seasonal economies and provide additional 
job opportunities throughout our mountain communities.
    Year-round activities make better use of the existing 
infrastructure. Many resort communities have four-season visitor 
facilities but do not offer a full range of four-season activities.
    Utah is a premier winter recreation destination and offers some of 
the best skiing in the world. The same mountains and unique geography 
that draw visitors from around the globe each winter also offer a vast 
array of off-season recreational opportunities.
    Although Congress can't create jobs, we can act to lessen the 
governmental restraints that stand in the way of job creation. The 
American people are not currently receiving the full recreational or 
economic benefits our vast system of public lands can provide and this 
bill is a step in the right direction.
    Under H.R. 765, the Forest Service will continue to have discretion 
in decision-making on site-specific proposals for summer or year-round 
facilities. The Forest Service will also collect permit fees for 
revenues generated from summer and year round activities at ski areas.
    Similar legislation passed out of the House in the 111th Congress 
and was reported out favorably by the Senate Committee on Energy & 
Natural Resources. However it, like many other public lands bills, 
failed to clear the Senate by the end of the Congress.
    The ski bill has bipartisan, bicameral support. Diana DeGette 
introduced it in the last Congress and Senators John Barrasso and Mark 
Udall are supporters in the Senate.
                                 ______
                                 

    STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. I will forego the statement and thank you for 
that, Mr. Chairman, and we can proceed with our colleagues. As 
you indicated, 8 of the 11 measures have gone through the 
process. There is one piece of legislation, I think H.R. 850, 
that will require additional scrutiny. And then we will go 
through that process.
    Thank you, sir.
    Mr. Bishop. I want to thank our colleagues and the other 
witnesses who have agreed to testify today on the 11 bills that 
are on the Committee's agenda. And that is, as I said, a lot to 
get covered.
    I will say for those who are here I realize you have tight 
time schedules, you have other commitments. So we will go 
through the testimony of the witnesses who are here on their 
particular bills. Then I intend to bring up the other witnesses 
and go through each bill in order. If you would like to stay to 
that time when your bill is discussed by both the 
Administration and the other witnesses you are welcome to stay. 
You are welcome to come back. We will try to be as 
accommodating as possible with that.
    So the first panel will be the sponsors of today's bills. 
We will give you an opportunity to make a five-minute statement 
on behalf of the legislation. I ask--actually, Mr. Calvert, you 
are happy where you are?
    Mr. Calvert. Yes, sir.
    Mr. Bishop. OK. We are not trying to discriminate against 
you and put you over on the other side. But you have experience 
in this room so I thought it is fitting. It is fitting.
    I will ask our colleagues to take their seats. And if 
others show up and they cannot fit on there, we will just take 
on the horseshoe at the same time.
    Let me do two things first of all. H.R. 241 is introduced 
by Mr. Gallegly who is not able to be with us today. The bill 
authorizes a small land conveyance affecting the Los Padres 
National Forest. And the bill passed in the House last year but 
was not taken up in the Senate. Mr. Gallegly has submitted a 
written statement explaining the legislation. I ask unanimous 
consent that that be included in the record.
    Hearing no objection.
    Mr. Bishop. Mr. Grijalva, I think you have one also for 
Mr.----
    Mr. Grijalva. Mr. Sablan.
    Mr. Bishop. Yes.
    Mr. Grijalva. Yes. The testimony, the opening statement for 
Mr. Sablan.
    Mr. Bishop. You are not on.
    OK, without objection, Mr. Sablan is not here, and we will 
ask that his opening statement be included in the record.
    Mr. Grijalva. Thank you.
    Mr. Bishop. Without objection. Thank you.
    [The prepared statement of Mr. Sablan follows:]

 Statement of The Honorable Gregorio Kilili Camacho Sablan, a Delegate 
 in Congress from the Commonwealth of the Northern Mariana Islands, on 
                               H.R. 1141

    Chairman Bishop and Ranking Member Grijalva,
    Thank you for placing my bill H.R. 1141, the Rota Cultural and 
Natural Resources Study Act, on the Subcommittee's agenda today and for 
allowing me to share my thoughts with the Subcommittee on this bill and 
ask for support of H.R. 1141.
    H.R. 1141 authorizes the Secretary of the Interior to study the 
suitability and feasibility of designating certain areas of 
prehistoric, historic, and natural significance on the island of Rota 
in the Northern Mariana Islands as a unit of the National Park System. 
As you know, this is a necessary step before Congress decides to 
designate any unit as part of the National Park System.
    The bill has garnered bi-partisan support in the House of 
Representatives for two consecutive sessions, support from local 
leaders representing the island of Rota, and support by the National 
Park Service.
    In the 111th Congress, the House of Representatives approved the 
Rota Cultural and Natural Resources Study Act, H.R. 4686, under a 
suspension of the Rules in July last year. There was no objection or 
controversy to the bill as it made through the House. Unfortunately, 
the other body did not have time on its agenda before the 111th 
Congress ended.
    The leaders of Rota unanimously support the study. With your 
permission, I am requesting to submit in the record the written letters 
of support from Honorable Teresita Santos, Rota's representative in the 
Northern Mariana Islands House of Representatives, NMI Senate President 
Paul Manglona, who also represents the people of Rota, and Mayor of 
Rota, Mr. Melchor Mendiola. These leaders understand that Rota is at a 
crossroads because major land use changes are possible resulting from 
the development by the U.S. military on the neighboring island of Guam. 
This development is bound to spill over to Rota, as military families 
look for weekend getaways to Rota's beaches and waters. The process of 
public input and discussion and the cataloguing of the natural and 
cultural resources will help the people of Rota determine which areas 
can be and need be protected. Moreover, these protected areas could be 
enhanced as eco-tourism destinations--places where cultural resources 
are respected and natural resources remain unspoiled.
    Finally, it is important to note that the National Park Service 
reconnaissance survey completed in 2005 recommended that the cultural 
and natural resources are truly of national significance and that the 
appropriate next step is a suitability and feasibility study.
    Again I would like to thank Chairman Bishop and Ranking Member 
Grijalva for their steadfast leadership and for understanding the 
importance of this bill. I ask that my colleagues support the Rota 
Cultural and Natural Resources Study Act.
                                 ______
                                 
    Mr. Bishop. All right. Let us go to the other bills. And I 
see in the order of them written down here, first Mr. Hunter, 
H.R. 290, War Memorial Protection Act is introduced by Mr. 
Hunter. If you would like to proceed, you know the details. 
There is the five-minute clock. You can see that.

 STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman,----
    Mr. Bishop. Thanks.
    Mr. Hunter.--for the opportunity to appear before the 
Subcommittee today on the topic of my legislation, H.R. 290, 
the War Memorial Protection Act. Also, I thank Ranking Member 
Grijalva and the other members of the Committee. Mr. Kildee, 
thank you for your interest in what is an important issue to 
the San Diego community and our nation's military families and 
veterans across the country from Arlington National Cemetery to 
Fort Rosecrans.
    In San Diego America's veterans are honored by headstones, 
monuments and memorials which serve to remind us all about the 
traditions, service and sacrifice that is ingrained in our 
history. Some of these markers and memorials display symbols of 
personal faith, including emblems that represent Christians, 
Buddhists, Mormons, Muslims and Atheists. The military is 
comprised of a diverse population of individuals. Something 
that is clear to anyone who walks through a national cemetery, 
anything like Arlington Cemetery.
    Personal faith is an important part of military life. It 
guides individuals through some of the toughest and most 
dangerous situations they will ever face. My time in the United 
States Marine Corps, serving in both Iraq and Afghanistan, help 
strengthen my own perspective. Marines, as do soldiers, sailors 
and airmen, often rely on their faith during long absences from 
home, and when the world is exploding around them. There is not 
much else in combat. And it is perhaps the biggest reason why 
crosses, for instance, are such common fixtures within the 
gates of national cemeteries and predominantly displayed on war 
memorials.
    But in San Diego, home to the Mount Soledad Veterans' 
Memorial, this meaning and intent has been misidentified. The 
Ninth Circuit Court of Appeals recently ruled that the 43 foot 
cross that sits atop the 2,700 black plaques is 
unconstitutional. Each plaque on the memorial, now under the 
ownership of the Department of Defense, tells a unique story of 
military service and shared sacrifice. Some show religious 
symbols of their own. The memorial was originally dedicated as 
a Korean War Veterans Memorial in 1952, but has since evolved 
into a standing testament to all American war heroes. The 
memorial honors uniformed members from all service branches, 
including the Coast Guard and Merchant Marines, who served 
during World War II. Several years ago, a legal challenge was 
initiated against the memorial alleging the presence of the 
cross serves as an endorsement of religion. The challenge also 
alleged the transference of the property to the Federal 
Government under Public Law 109-272, enacted in 2006, was in 
violation of the law.
    In 2008, U.S. District Court Judge Larry Burns ruled that 
the cross represented only one element a much larger memorial 
dedicated to our military. Because of this ruling, the memorial 
has remained intact despite ongoing litigation. The memorial 
now faces an uncertain future, at the direction of the Ninth 
Circuit.
    Still I am confident that as legal action proceeds, 
including the option of consideration by the Supreme Court, any 
final decision will properly acknowledge the memorial's purpose 
for honoring generations of military service. Beyond the Mount 
Soledad Memorial ruling and possibly future instances of 
judicial activism along the same line underscores an existing 
threat to the preservation of war memorials.
    In cases where religious elements are present, the fact 
that these monuments stand as symbols of military service and 
sacrifice does not change--as much as a few individuals might 
try to misconstrue their meaning. The War Memorial Protection 
Act ensures this is not the case by creating a foundation in 
Federal law for the inclusion of religious symbols, all 
religious symbols, on war memorials. It should not matter if it 
is a cross, a Star of David, or a Wiccan symbol--which are 
among the 46 authorized emblems of belief through the 
Department of Veterans Affairs, War Memorials, including those 
with religious symbols deserve to be protected for what they 
are, testaments to military service.
    Mr. Chairman, thank you for the opportunity to be here 
today. This is an important bill that resonates with veterans 
and families across America, and I look forward to working with 
you and our colleagues in the interest of ensuring that our 
veterans are rightly honored for their defense of our freedom. 
Thank you.
    [The prepared statement of Mr. Hunter follows:]

      Statement of The Honorable Duncan Hunter, a Representative 
         in Congress from the State of California, on H.R. 290

    Thank you Chairman Bishop for the opportunity to appear before the 
subcommittee today on the topic of my legislation, H.R. 290, the War 
Memorial Protection Act. Also, thank you Ranking Member Grijalva and 
the other members of the committee for your interest in what is an 
important issue to the San Diego community and our nation's military 
families and veterans.
    Across the country, from Arlington National Cemetery to Fort 
Rosecrans in San Diego, America's veterans are honored by headstones, 
monuments and memorials which serve to remind us all about the 
tradition, service and sacrifice that is engrained in our history. Some 
of these markers and memorials display symbols of personal faith, 
including emblems that represent Christians, Buddhists, Mormons, 
Muslims and Atheists.
    The military is comprised of a diverse population of individuals--
something that is clear to anyone who walks through a national 
cemetery. Personal faith is an important part of military life. It 
guides individuals through some of the toughest and most dangerous 
situations they will ever face.
    My time in the Marine Corps, serving in both in Iraq and 
Afghanistan, helped strengthen my own perspective. Marines--as do 
soldiers, sailors and airmen--often rely on their faith during long 
absences from home and when the world is exploding around them. There's 
not much else in war. And it's perhaps the biggest reason why crosses, 
for instance, are such common fixtures within the gates of national 
cemeteries and predominantly displayed on war memorials.
    But, in San Diego, home to the Mount Soledad Veterans Memorial, 
this meaning and intent has been misidentified. The Ninth Circuit Court 
of Appeals recently ruled that the 43-foot cross that sits atop 2,700 
black plaques is unconstitutional.
    Each plaque on the Memorial--now under the ownership of the 
Department of Defense--tells a unique story of military service and 
shared sacrifice. Some show religious symbols of their own.
    The Memorial was originally dedicated as a Korean War Veterans 
Memorial in 1952, but has since evolved into a standing testament to 
all American war heroes. The Memorial honors uniformed members from all 
service branches, including the Coast Guard and Merchant Marines who 
served during World War II.
    Several years ago, a legal challenge was initiated against the 
Memorial, alleging the presence of the cross serves as an endorsement 
of religion. The challenge also alleged that the transference of the 
property to the federal government under P.L. 109-272, enacted in 2006, 
was in violation of the law. In 2008, U.S. District Court Judge Larry 
Burns ruled that the cross represented only one element of a much 
larger memorial dedicated to our military. Because of this ruling, the 
Memorial has remained intact despite ongoing litigation.
    The Memorial now faces an uncertain future at the direction of the 
Ninth Circuit. Still, I'm confident that as legal action proceeds, 
including the option of consideration by the Supreme Court, any final 
decision will properly acknowledge the Memorial's purpose of honoring 
generations of military service.
    Beyond the Mount Soledad Memorial, the Ninth Circuit ruling and 
possibly future instances of judicial activism along the same line 
underscores an existing threat to the preservation of war memorials. In 
cases where religious elements are present, the fact that these 
monuments stand as symbols of military service and sacrifice does not 
change--as much as a few individuals might try to misconstrue their 
meaning.
    The War Memorial Protection Act ensures this is not the case, by 
creating a foundation in federal law for the inclusion of religious 
symbols on war memorials. It shouldn't matter if it's a cross, Star of 
David or Wiccan symbol, which are among the 46 authorized emblems of 
belief through the Department of Veterans Affairs. War memorials, 
including those with religious symbols, deserve to be protected for 
what they are: testaments to military service.
    Mr. Chairman, thank you for the opportunity to be here today. This 
is an important bill that resonates with veterans and military families 
across America. I look forward to working with you and our colleagues 
in the interest of ensuring our veterans are rightly honored for their 
defense of freedom.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman. I appreciate it.
    Representative Calvert is here with H.R. 320, the 
``Distinguished Flying Cross National Monument'' bill. He has 
been here before with this bill. It has been passed by our 
Congress. It has not been funded nor passed in the Senate yet. 
I am still not quite sure why our Committee keeps getting this 
particular bill, but we like it. So if you would, you are 
recognized for five minutes.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Well, thank you, Chairman Bishop, Ranking 
Member Grijalva and distinguished members of the Committee, 
thank you for the opportunity to testify today. As a former 
member of the Natural Resources Committee, I am happy to be 
back among friends to talk about H.R. 320, a bill to designate 
a National Distinguished Flying Cross Memorial. I am seeking 
your support for the legislation. I am honored to represent the 
Inland Empire Chapter of the Distinguished Flying Cross 
Society, which is the primary sponsor of the memorial.
    I introduced H.R. 320, which would designate a memorial 
which is currently under construction at March Field Air Museum 
in Riverside, California, as a Distinguished Flying Cross 
National Memorial. It honors all current and former members of 
the Armed Forces who have been awarded the Distinguished Flying 
Cross. The bill has strong support, with over 25 cosponsors. 
The legislation is supported by the Distinguished Flying Cross 
Society, the Military Officers Association of America, the Air 
Force Association, the Air Force Sergeants Association, the 
Viet Nam Helicopter Pilots Association, and the China-Burma-
India Veterans Association.
    I would like to point out that language in the bill 
specifically states the designation shall not be construed, 
require or permit Federal funds to be expended for any purpose 
related to the national memorial. Funds have been and will 
continue to be raised through private means for this purpose. 
Distinguished Flying Cross recipients have received the 
prestigious medal for their heroism and extraordinary 
achievement while participating in aerial flight while serving 
in the capacity of the United States Armed Forces.
    There are many well-known people who played a vital role in 
the history of military aviation and received the award. This 
group includes Captain Charles L. Lindbergh, former President 
George H. W. Bush, Brigadier General Jimmy Doolittle, General 
Curtis LeMay, Senator McCain, Jimmy Stewart, Admiral Jim 
Stockdale, just to name a few. March Air Force Reserve Base, 
which hosts the C-17As of the 452 Air Mobility Wing is adjacent 
to the location of the memorial at the March Field Air Museum--
which, by the way, is the third oldest airfield in the United 
States. When completed, visitors will be able to witness active 
operational air units providing support to the troops in Iraq 
and Afghanistan which is an appropriate setting that honors the 
many aviators who have distinguished themselves by the deeds 
performed in aerial flight. The memorial will be topped by a 2-
foot by 2-foot Distinguished Flying Cross of polished bronze 
and models of the Spirit of St. Louis and Loening OA-1A 
amphibian aircraft. The OA-1A was chosen because the Pan 
American Good Will flights were made in five OA-1A aircraft by 
10 pilots between 1926 and 1927. The pilots were the first 
recipients of the Distinguished Flying Certificate from 
President Calvin Coolidge.
    Again thank you. I hope you will support the designation of 
the National Distinguished Flying Cross Memorial at March Air 
Museum and H.R. 320 and hopefully we will get it through the 
Senate, our friends on the other side of the building.
    Thank you and have a good day.
    [The prepared statement of Mr. Calvert follows:]

 Statement of The Honorable Ken Calvert, a Representative in Congress 
               from the State of California, on H.R. 320

    Chairman Bishop, Ranking Member Grijalva and distinguished Members 
of the Committee, thank you for the opportunity to testify today. As a 
former Member of the Natural Resources Committee I'm happy to be back 
among friends to talk about H.R. 320, a bill to designate a national 
Distinguished Flying Cross Memorial. I am seeking your support for the 
legislation.
    I am honored to represent the Inland Empire Chapter of the 
Distinguished Flying Cross Society which is the primary sponsor of the 
memorial. I introduced H.R. 320 which would designate a memorial, which 
is currently under construction at March Field Air Museum, in 
Riverside, California, as the Distinguished Flying Cross National 
Memorial. It honors all current and former members of the armed forces 
who have been awarded the Distinguished Flying Cross.
    The bill has strong bipartisan support with 25 cosponsors. The 
legislation is supported by the Distinguished Flying Cross Society, 
Military Officers Association of America, the Air Force Association, 
Air Force Sergeants Association, the Vietnam Helicopter Pilots 
Association, and the China Burma Indian Veterans Association. I'd like 
to point out language in the bill that specifically states that the 
designation shall not be construed to require or permit federal funds 
to be expended for any purpose related to the national memorial. Funds 
have been and will continue to be raised through private means for 
these purposes.
    Distinguished Flying Cross recipients have received the prestigious 
medal for their heroism or extraordinary achievement while 
participating in aerial flight while serving in any capacity with the 
U.S. Armed Forces. There are many well known people that have played a 
vital role in the history of military aviation and have received the 
award This group includes: Captain Charles L. Lindbergh, former 
President George H. W. Bush, Brigadier General Jimmy Doolittle, General 
Curtis Lemay, Senator McCain, Jimmy Stewart and Admiral Jim Stockdale 
to name just a few.
    The March Air Reserve Base, which hosts the C-17As of the 452nd Air 
Mobility Wing is adjacent to the location of the memorial at the March 
Field Air Museum. When completed, visitors will be able to witness 
active operational air units providing support to our troops in Iraq 
and Afghanistan, which is an appropriate setting that honors the many 
aviators who have distinguished themselves by deeds performed in aerial 
flight.
    The memorial will be topped by a two foot by two foot Distinguished 
Flying Cross of polished bronze and models of the Spirit of Saint Louis 
and a Loening OA-1A amphibian aircraft. The OA-1A was chosen because 
the Pan-American Goodwill Flights were made in five OA-1A aircraft by 
ten pilots between 1926 and 1927. The pilots were the first receipts of 
the Distinguished Flying Certificate from President Calvin Coolidge.
    Again, I hope you will join me in supporting the designation of the 
National Distinguished Flying Cross Memorial at the March Field Air 
Museum and H.R. 320. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate that, Congressman 
Calvert.
    H.R. 944 is introduced by Mr. Campbell. It removes a 70-
year-old reservation affecting several islands and rocks on the 
coast of Orange County, California. Mr. Campbell.

 STATEMENT OF HON. JOHN CAMPBELL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Campbell. Thank you, Mr. Chairman, and this is one of 
those bills, as you mentioned, that passed this Committee and 
this House by voice vote last year, but the Senate ran out of 
time and so it was never taken up in the Senate. So we are 
reintroducing this year.
    What this bill does is, there are about 40-odd rocks, for 
lack of a better term. That is a picture of one. They are all 
two acres or smaller in size, but they are like big rocks, off 
the Orange County coast, which since the early 1930s have been 
under the purview of the Coast Guard for possible use as 
lighthouses or during World War II for possible use as gun 
emplacements against Japanese submarines.
    Neither of those uses are currently under any 
consideration. The Coast Guard no longer needs them. What this 
bill would do is transfer them from the Coast Guard to the 
California Coastal National Monument. There are 20,000 other 
similar such rocks up and down the California coastline which 
are currently a part of the California Coastal National 
Monument, but these 40-plus never got transferred. So, what 
this bill would do is transfer them to that Monument and 
protect them for enjoyment and beauty and wildlife in the 
future. Thank you very much.
    Mr. Bishop. Thank you, Mr. Campbell. I appreciate it. Once 
again, if you need to go, you can go. If you would like to stay 
when the other testimony comes for your bill, you are welcome 
to do that as well.
    H.R. 643, the ``Sugar Loaf Fire Protection District Land 
Exchange Act.'' Could you get more words in there, Mr. Polis? 
Mr. Polis, you are recognized.

  STATEMENT OF HON. JARED POLIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Polis. Thank you, Chairman Bishop and Ranking Member 
Grijalva. I am glad to see my colleague from Colorado, Mr. 
Lamborn, on the panel as well this morning. I want to begin by 
thanking the Committee for considering this bill, H.R. 643. I 
will also briefly address H.R. 765.
    Let me begin by thanking the Committee for working last 
year and for unanimity with both Members and staff. That work 
resulted in both Committee and House passage by a voice vote. 
And, there is really no controversy involved with H.R. 643.
    Since the inception of the Sugar Loaf Fire District in 
1967, their physical home has been an existing building on U.S. 
Forest Service land which they have a special use permit for. 
Now, while that special use permit is very valuable, and it has 
allowed it to operate, it is really critical that they have the 
autonomy to direct their own future and modernize their 
facility. So I would point out that one occurrence since the 
last time this bill came before the Committee is there has 
actually been devastating fires in the area. So these firemen 
and firewomen have been extremely heroic, putting their own 
lives at risk and many of the members of the fire department 
themselves have lost their homes in a recent fire, several 
months ago.
    And yet, because this is located on Federal land, they are 
not even allowed to upgrade their facilities to include a 
bathroom for use by the fire department. So, it is just a basic 
need.
    Last year Mr. John Winchester, our Battalion Chief for the 
Sugar Loaf Fire District, was able to attend the hearing and 
offer testimony. Unfortunately, he is not able to attend this 
year. He is still at work, recovering from the forest fire and 
helping the area restore. And he has served over 20 years with 
the department, and without objection, I would like to enter 
into the record his testimony from last year?
    Mr. Bishop. So ordered.
    Mr. Polis. Thank you.
    And finally, a Senate companion bill was marked up last 
Congress with changes suggested in the hearing by the U.S. 
Forest Service and the Sugar Loaf Fire Protection District. 
Specifically, the Forest Service asks that the 120-day timeline 
be expanded to one year to conform with existing law. And the 
modifications to the structure wait until the exchange has 
taken place. Those changes and requests were included in the 
introduced versions of the bill in both Chambers and are the 
same as the bill that passed the Committee and the full House.
    Mr. Chairman, I would also like to briefly address H.R. 
765, the ``Ski Area Recreational Opportunity Enhancement Act.'' 
My district in Colorado, as Mr. Lamborn knows, is 
internationally acclaimed for its many resort communities, 
including Vail, Keystone, Breckenridge, Copper Mountain, and 
Winter Park. What this bill will do is allow for increased 
summer visitation in a correct way that really balances the 
environmental and educational benefits to allow resorts like 
Vail and many others to successfully attract tourists and build 
the facilities to do so in the summer as well as winter. I 
can't emphasize to the Committee enough that time is of the 
essence for this bill. Again, this bill passed the entire House 
by voice vote last year and that enacting this bill sooner 
rather than later directly translates into jobs in the state 
that Mr. Lamborn and I call home. Of course, while I would 
certainly argue that my Congressional District and Colorado as 
a whole is second to none for outdoor recreation, this issue is 
not just a Colorado issue. In fact, it is an issue for every 
ski area and every ski community be it from California to New 
Hampshire. Over 120 resorts and the businesses and communities 
they support would benefit from increased summer activities 
within current ski areas. This legislation represents a needed 
change for our land management and an important opportunity to 
create jobs in our district. I appreciate the opportunity to 
testify on these bills today, Mr. Chairman.
    [The prepared statement of Mr. Polis follows:]

       Statement of The Honorable Jared Polis, a Representative 
          in Congress from the State of Colorado, on H.R. 643

    Chairman Bishop, Ranking Member Grijalva and Members of the 
Committee,
    Thank you for the opportunity to comment in support of H.R. 643, 
The Sugar Loaf Fire Protection District Land Exchange Act of 2011.
    Let me begin by thanking the Committee for considering this bill, 
as it did with great unanimity last year thanks to the work of many of 
the same members and staff here today. That work resulted in both 
Committee and House passage by a simple voice vote. The unanimity with 
which the Committee and the House have considered this bill in the past 
is telling of its foundation in common sense and local community need.
    Since the inception of the Sugar Loaf Fire District in 1967, their 
physical home has been in an existing building on U.S. Forest Service 
land under a special use permit. Later, a second building was 
constructed under another special use permit, both in important 
locations for accessibility to the few central roads in this 
mountainous area.
    While these special use permits have been incredibly valuable the 
Department must have the autonomy to better self-direct its future and 
the ability to modernize its facilities. Specifically, many of you may 
recall that this fire station serves a growing population and has 
become a community meeting location. Yet, because it is located on 
federal land, it can't even upgrade its existing facilities to include 
a bathroom for use by the fire department or during community events.
    Last year, John Winchester, a battalion chief with the Sugar Loaf 
Fire Department, was able to attend the hearing and offer testimony. 
Unfortunately, he is unable to attend this year, but I would like to 
enter into the record his written testimony from last year. In his over 
20 years with the Department, he has served four terms as fire chief 
and I hope his expertise on this issue proves valuable in the 
committee's consideration.
    Lastly, a Senate companion bill was marked up last Congress with 
changes suggested in that hearing by the U.S. Forest Service and the 
Sugar Loaf Fire Protection District. Specifically, the US Forest 
Service asked that the 120-day timeline in the legislation be expanded 
to one year in order to conform with existing laws, and that 
modifications to the structures wait until after the exchange has taken 
place. These changes and requests were included in the introduced 
versions of this bill both last year and this year, and are the same as 
the bill that passed the committee and full House.
    As the bill's sponsor, I hope to work closely with the U.S. Forest 
Service, the Committee, and the Sugar Loaf Fire Protection District to 
address future needs, and ensure that this legislation will benefit the 
Fire District, the Forest Service and the communities they both serve.
    Thank you again for the opportunity to speak to this committee 
today.
                                 ______
                                 

       Statement of The Honorable Jared Polis, a Representative 
          in Congress from the State of Colorado, on H.R. 765

    Thank you very much for the opportunity to share with you my 
support for H.R. 765, the Ski Area Recreational Opportunity Enhancement 
Act.
    My district in Colorado is an internationally acclaimed playground 
where the world class resorts of Vail, Keystone, Breckenridge, Copper 
Mountain, Winter Park and many other community favorites provide a 
place for individuals of all abilities and fitness levels to get great 
exercise, experience nature and take in the incredible landscapes that 
define Colorado's character.
    In my district, skiing isn't just an activity, it's a way of life 
that supports businesses, provides jobs, sustains communities and has 
created a national industry of related fields. Not only do ski areas 
and resorts hire employees, but so do nearby hotels, rental shops and 
equipment retailers, restaurants, equipment manufacturing companies, 
magazines, nearby airports and every aspect of our local economies, all 
of which are reliant on the travel and tourism generated by these ski 
areas. The ability of ski areas to offer these benefits year round 
means the survival of communities and businesses not just in my 
district but across the country. It means a more stable economy, better 
communities and a better quality of life by balancing the influx of 
winter guests with the void of summer visitors.
    Increased summer visitation, done correctly, also has environmental 
and educational benefits. Our national forests are important reservoirs 
for our nation's natural assets, and conservation of these forests must 
be a top priority. Ski areas are places where people can safely 
experience these lands and get a taste of nature even if limited by 
fitness, ability or outdoor know how. Nearly 20% of all national forest 
visitors are visitors at ski resorts, confining this usage to specific 
places and leaving other areas less impacted. They provide an important 
recreational and educational venue in a controlled environment, melding 
elements of nature with features of modern convenience. This melding 
should not take place everywhere and ski areas play an important role 
in confining this practice to specific and small tracks of land 
allowing a greater number of individuals to gain an introduction to 
nature.
    The National Forest Ski Area Permit Act of 1986 once allowed this 
industry to flourish and has ensured that the needs of a growing 
industry, local economies, and our national forest ecosystems are 
simultaneously met. Today however, the Forest Service is dealing with 
unclear directives from the National Forest Ski Area Permit Act. Things 
like snowboards and ski bikes were never envisioned when the law was 
originally written. Today we also face new consequences from climate 
change and an ever growing popularity in summer recreational activities 
that the original law does not adequately address. H.R. 765 is aimed at 
giving our vitally important ski areas the flexibility they need to 
provide an economic foundation all year round, in the face of a 
changing climate and changing ski season, while giving the Forest 
Service a proper and legal base on which to responsibly manage these 
areas.
    I can't express upon the committee enough that time is of the 
essence for this bill and that enacting this bill sooner rather than 
later will mean that it will put people to work. We want to create 
jobs, and this bill will do that.
    Finally, while I would certainly argue that Colorado's Second 
Congressional District is second to none for outdoor recreation, this 
issue isn't a Colorado issue it is an issue for every ski area and 
every ski community in the country from California to New Hampshire. 
Over 120 resorts, and the businesses and communities they support, 
across the country would benefit from increased summer activities 
within current ski areas. Areas in Arizona, California, Colorado, 
Idaho, Montana, Nevada, New Hampshire, New York, New Mexico, Oregon, 
Utah, Vermont, Washington, West Virginia and Wyoming, like in my 
district, are economic foundations of local communities.
    This legislation represents a needed change for our federal land 
managers and an important change and opportunity for the many 
communities, businesses, employees, and public lands lovers' throughout 
the country. Once again I thank Chairman Bishop, Ranking Member 
Grijalva, Congresswoman DeGette and this subcommittee for hearing my 
testimony today.
                                 ______
                                 
    Mr. Bishop. Thank you very much, and your testimony on the 
last bill was brilliant. I have to add that. I appreciate that.
    Again, if you would like to stay for the other testimony, 
you are welcome to. If you have other obligations, you can do 
that as well.
    Ms. Bachmann, if you would like to join the panel too, we 
will eventually, you are two away from here.
    H.R. 1022, ``Buffalo Soldiers in the National Parks Study 
Act,'' by Ms. Speier, from California. You are recognized for 
five minutes.

 STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Speier. Thank you, Mr. Bishop and Ranking Member 
Grijalva, members of the Subcommittee. I appreciate the 
opportunity to present H.R. 1022 to you. Last year, you will 
recall this bill was passed out of this Committee and off the 
House Floor by a voice vote, and again, got bogged down in the 
Senate like these other bills did.
    This bill would evaluate the feasibility of a national 
historic trail along the Buffalo Soldier route between the 
historic military post at San Francisco Presidio and Yosemite 
and Sequoia National Parks. The study would also identify 
properties that could be listed in the National Register of 
Historic Places or designation as National Historic Landmarks.
    The Buffalo Soldiers, as many of you know, were our very 
first park rangers. They understood what needed to be done to 
protect our public lands earlier and better than most, because 
it was their duty to understand it. Because of the color of 
their skin, however, they were all too often marginalized 
instead of respected for it. The Buffalo Soldiers traveled 
through my district on their way to the parks and I am proud to 
help shine a light on the history they helped build in our 
great State of California and many places across the country. 
All Americans should be able to learn about this neglected 
chapter in American history. The Buffalo Soldiers' story is 
ultimately about the triumph, not just of African American 
troops over prejudice and injustice, but about the movement of 
our nation toward a more tolerant and courageous society.
    In short, this is an all-American story that should be made 
a greater part of our park system and I believe it will enhance 
the park experience for millions of visitors for many years to 
come. I respectfully ask the Subcommittee's support for H.R. 
1022 and I thank you for the opportunity to present today.
    [The prepared statement of Ms. Speier follows:]

      Statement of The Honorable Jackie Speier, a Representative 
         in Congress from the State of California, on H.R. 1022

    Chairman Bishop, Ranking Member Grijalva, Members of the 
Subcommittee, thank you for inviting me to testify today on my 
legislation, the Buffalo Soldiers in the National Parks Study Act. Last 
year, this Committee extended me the same privilege, and I was pleased 
to share the story of the Buffalo Soldiers in my testimony, which 
several of you already know so well.
    But much of the American public, including millions of our park 
visitors, are unaware of this great part of American history. The goal 
of my legislation, which is identical to the bill I introduced last 
year and which passed the House by voice vote, is once again to help 
bring that story to light.
    The Buffalo Soldiers in the National Parks Study Act will allow the 
Department of the Interior to study the role the Buffalo Soldiers 
played in maintaining our earliest National Parks, before they were 
even designated National Parks.
    Specifically, the bill would evaluate the feasibility of a National 
Historic Trail along the Buffalo Soldier routes between their historic 
military post at the San Francisco Presidio, and Yosemite and Sequoia 
National Parks. The study would also identify properties that could be 
listed in the National Register of Historic Places or designation as 
National Historic Landmarks.
    The Buffalo Soldiers were among our very first park rangers. They 
understood what needed to be done to protect our public lands earlier 
and better than most--because it was their duty to understand it. 
Because of the color of their skin, however, they were all too often 
marginalized instead of respected for it.
    It was the heyday of the gold rush that brought the first white 
visitors to Yosemite, many of whom were all too eager to poach, log, 
and overgraze the land. And it was African American soldiers who stood 
sentry at the parks' edge. Guns were not allowed in the parks, and the 
Buffalo Soldiers were under no illusions that confiscating arms from 
whites seeking to bring them in would be without risk. But in the face 
of frontierism and racism, the Buffalo Soldiers not only weathered 
confrontation--they overcame it, they became neighbors and friends to 
the settlers in the park regions, and they made real inroads toward 
racial progress that were extraordinary for their day.
    Although they were assigned to watch over government property for 
only a relatively short time, the Buffalo Soldiers helped lay the 
groundwork for thoselands to be preserved forever. I am proud that the 
Buffalo Soldiers traveled through my district on their way to the 
parks. I am proud to help shine a light on the history they helped 
build in the great state of California and in many places across our 
great country.
    All Americans, from all walks of life, should be fortunate enough 
to learn about this neglected chapter in American history. The Buffalo 
Soldiers' story is ultimately about the triumph not just of African 
American troops over prejudice and injustice, but about the movement of 
our nation toward a more tolerant and courageous society.
    In short, this is an all-American story that should be made a 
greater part of our Parks system, and I believe it will enhance the 
Parks experience for millions of visitors, returning and newcomers, for 
many years to come.
    I respectfully ask for the Subcommittee's support for H.R. 1022, 
and I thank you for the opportunity to deliver my testimony today.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony, as well. If you 
have other obligations, if not you are more than welcome to 
stay as we go through this bill later on with other testimony.
    Mr. Young has introduced H.R. 441, which authorizes a land 
exchange needed for the microhydro power facility at Denali 
National Park. Mr. Young is not yet with us. When he is, I will 
entertain his statement at that particular time.
    H.R. 850 was introduced so that a needed replacement bridge 
can be constructed across the St. Croix River. Legislation has 
bipartisan support and it is needed to settle an issue whether 
or not this bridge is in compliance with the Wild and Scenic 
Rivers Act. Ms. Bachmann, you are recognized for five minutes 
for your bill.

    STATEMENT OF HON. MICHELE BACHMANN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Ms. Bachmann. Thank you, Mr. Chairman. Thank you Ranking 
Member Grijalva and also Chairman Bishop and members of the 
Committee. I want to thank you for your consideration of H.R. 
850. It is a bill that I am very proud to sponsor. It 
facilitates the construction of a four-lane highway bridge over 
the Lower St. Croix River in Oak Park Heights, Minnesota, that 
connects to St. Joseph, Wisconsin.
    Today's hearing on the St. Croix River Crossing project is 
a much-needed step to preserve human safety, interstate economy 
and the beauty of our river crossing in Stillwater. I commend 
the House Committee on Natural Resources on the expedient 
manner in which they have addressed this long overdue project. 
It has been since the early 1970s that a broad coalition of 
multiple interests has discussed the construction of a new 
bridge that would replace the current lift bridge, built in 
1931, now some 80 years old.
    The bridge that collapsed in Minneapolis in 2007 that led 
to the deaths of 13 people had a sufficiency rating of 50. The 
current lift bridge in Stillwater is listed as structurally 
deficient. It has a sufficiency rating of 32.8 as inspected on 
July 16, 2009. The bridge simply cannot sustain the 16-18,000 
daily drivers which are estimated to increase to 48,000 by 2030 
on a structure that was designed for far less.
    Current crash rates are 50-90 percent higher than the state 
average. The pending proposal would provide a safe, reliable 
and efficient transportation corridor by reducing congestion, 
improving roadway safety and providing an adequate level of 
service for forecasted 2030 traffic volumes.
    Each time a bridge proposal neared approval, and even when 
the National Park Service approved the project in 2005, it was 
stopped through litigation brought about by outside special 
interests. The recommendations of a multi-member advisory group 
that included representatives from Federal and state regulatory 
agencies, local and regional units of government, environmental 
groups, historic preservation groups and chambers of commerce 
were trumped consistently by their objections of visual 
pollution by the special interest organization which chose to 
not join the stakeholder group when asked to do so.
    The visual pollution argument is quite disingenuous on its 
claim that a beautiful landscape would be marred by an 
environmentally designed new bridge, when the existing bridge 
is a short distance away from a sewage treatment plant, a power 
plant with a giant smokestack, as seen in the dual image 
poster, as well as the state prison facility. The single image 
poster shows artist's rendition of the new bridge in its 
proposed location. Unfortunately, the project is currently at 
an impasse due to the March 2010 ruling from the United States 
District Court vacating the National Park Service Section 7A 
permit of 2005. Nothing in the March 2010 ruling allows for any 
possible bridge to be built in compliance with the Wild and 
Scenic Rivers Act of 1968 because nothing in the Act allows the 
National Park Service to approve a bridge project unless the 
impact to the river values, wild scenic recreational are 
eliminated. This is impossible. Therefore, no bridge, not even 
the existing bridge, is compliant with Wild and Scenic Rivers 
Act. It is impossible to measure the crippling economic impact 
that the St. Croix River Crossing project delay has cost our 
two states from a commerce and job standpoint.
    However, according to MinnDOT, if the project moves forward 
an estimated 22,970 jobs will be created per year, and at peak 
construction over 6,000 full time workers will be required. 
Over a 20-year period, the travel time savings and reduction of 
crash costs will significantly improve mobility and economic 
output to the tune of over $883 million. Every month the 
project is delayed, the cost escalates by over $3.17 million. 
What started out as an $80 million project in 1992, now has a 
cost estimate of nearly $700 million.
    The states of Wisconsin and Minnesota are working together 
to fund the project with a large portion of the bonding 
authority already set aside, I am pleased that my underlining 
bill does not appropriate a single dime.
    Therefore, Chairman Bishop, Ranking Member Grijalva, and 
members of the Committee, I respectfully ask the Committee to 
take the necessary action to move this vital project forward. 
The St. Croix River Crossing project is no longer a matter of 
if it is necessary. That has already been determined. This is 
now an issue of how much we will pay in dollars and possibly 
lives before we act. The bill simply authorizes something that 
should have been decades ago, and I thank the Committee.
    [The prepared statement of Ms. Bachmann follows:]

     Statement of The Honorable Michele Bachmann, a Representative 
          in Congress from the State of Minnesota, on H.R. 850

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Committee, thank you for your consideration of H.R. 850, a bill that I 
am proud to sponsor, facilitating the construction of a four-lane 
highway bridge over the Lower St. Croix River at Oak Park Heights, 
Minnesota and St. Joseph, Wisconsin.
    Today's hearing on the St. Croix River Crossing Project is a much-
needed step to preserve human safety, interstate economy, and the 
beauty of the river crossing at Stillwater. I commend the House 
Committee on Natural Resources for the expedient manner in which they 
have addressed this long-overdue project.
    Since the early 1970's a broad coalition of interested parties has 
discussed the construction of a new bridge that would replace the 
current lift-bridge built in 1931. The bridge is listed as structurally 
deficient, and has a sufficient rating of 32.8, as inspected on July 
16, 2009. To put this in perspective, the bridge that collapsed in 
Minneapolis in 2007, that led to the deaths of 13 people, had a 
sufficient rating of 50. While construction on a new bridge has been 
stalled by outrageous lawsuits and bureaucracy, the current lift-bridge 
continues to rust, twist, and sluff-off concrete into the river. The 
bridge simply cannot sustain the 16,000 to 18,000 daily drivers, which 
are estimated to increase to 48,000 by 2030, on a structure designed 
for far less. The four lanes of Highway 36 converge at this two-lane 
bridge with commuters and commercial drivers in gridlock during peak 
times or backed up through residential areas that house children. 
Emission pollution from idling vehicles hangs over the city, and 
current crash rates are 50 to 90 percent higher than the state average. 
The pending proposal would provide a safe, reliable, and efficient 
transportation corridor by reducing congestion, improving roadway 
safety, and providing an adequate level of service for forecasted 2030 
traffic volumes. (According to MnDOT, 2030 traffic volumes are 
estimated to increase by over 30 percent on Stillwater Boulevard, 70 
percent on Osgood Avenue, over 100 percent on I-94, and over 50 percent 
on USH 8).
    Early on, funding was an issue, but in the 1980's MnDOT, WisDOT, 
and the Federal Highway Administration began working with the 
communities of Stillwater and Oak Park Heights in Minnesota, and St. 
Joseph Township in Wisconsin to identify possible solutions for a 
replacement crossing. By 1992, Wisconsin and Minnesota officials had 
announced a decision to build a four-lane bridge over the St. Croix 
River near Stillwater.
    Following a multi-year Environmental Impact Study, a proposal to 
build a bridge was presented to the National Park Service for 
permitting. The project continued to move forward until the Sierra Club 
sued the National Park Service for failing to issue a Section 7(a) 
evaluation, prompting the National Park Service to issue the evaluation 
stating, ``the bridge would have a direct and adverse effect on the 
scenic values that could not be mitigated.'' MnDOT intervened and filed 
a cross-claim against the National Park Service stating the bridge was 
not a ``water resources project'' under Section 7 of the Wild and 
Scenic Rivers Act. The court ruled in favor of the National Park 
Service.
    In 2001, the US Institute of Environmental Conflict Resolution was 
created through the Federal Highway Administration to resolve 
environmental conflicts by gathering key interests, establishing a 
process for negotiations among the parties, providing recommendations, 
and setting an expected date of resolution. This institute helped 
facilitate the consensus to move forward with construction. Today, that 
consensus is stronger than ever with an even more diverse sector of 
members.
    However, even after a Section 7(a) mitigation package was approved 
by the National Park Service in 2005, the bridge is still not built. 
Every time a proposal started moving forward, the process was 
interrupted by a lawsuit brought by the Sierra Club. The 
recommendations of a multi-member advisory group that included 
representatives from federal and state regulatory agencies, local and 
regional units of government, environmental groups, historic 
preservation groups, and chambers of commerce, were trumped by the 
``visual pollution'' cries of this organization.
    The ``visual pollution'' argument is quite disingenuous in its 
claim that a beautiful landscape would be marred by an environmentally-
designed new bridge, when the existing bridge is a short distance away 
from a sewage treatment plant and a power plant with a giant smoke 
stack, as seen in the dual-image poster. The single-image poster shows 
the artist's rendition of the new bridge in its proposed location. 
Unfortunately, the project is currently at an impasse due to the March 
2010 ruling from the US District Court vacating the National Park 
Service Section 7(a) permit of 2005.
    Nothing in that March 2010 ruling allows for any bridge to be in 
compliance with the Wild and Scenic Rivers Act of 1968 because nothing 
in the Act allows the National Park Service to approve a bridge project 
unless the impact to the river values (wild, scenic, recreational) are 
eliminated. This is impossible. Therefore, no bridge, not even the 
existing bridge, is compliant with the Wild and Scenic Rivers Act 
values.
    It is impossible to measure the crippling economic impact that the 
St. Croix River Crossing Project delay has cost our two states from a 
commerce and jobs standpoint. However, according to MnDOT, an estimated 
2,970 jobs will be created per year, and at peak construction, 6,237 
full-time workers will be required. Over a twenty-year period, the 
travel time savings and reduction of crash costs will significantly 
improve mobility and economic output to the tune of over $883 million.
    Meanwhile, the environmental mitigation package, agreed upon by the 
interested parties and approved by the National Park Service in 2005, 
will maintain the existing crossing as part of a unique bicycle/
pedestrian tourist attraction, with the lift-bridge as its centerpiece. 
Immediate emission rates with the new bridge are projected to be 45 to 
56 percent lower than year 2000 emission rates.
    The St. Croix River Crossing Project was one of only seven, 
nationwide, addressed in a 2002 Presidential Executive Order (13274) to 
enhance environmental stewardship. The bridge is a cutting-edge design 
streamlined by federal environmental reviews and it demonstrates an 
extraordinary partnership between multiple interests to develop a 
sensitive solution. Each month that this project is delayed, the cost 
escalates by approximately $3.17 million. What started at $80 million 
dollars in 1992 now has a cost of almost $700 million. The states of 
Wisconsin and Minnesota are working together to fund the project, with 
a large portion of the bonding authority already set aside. I am 
pleased that my underlying bill does not appropriate a dime.
    Therefore, Chairman Bishop, Ranking Member Grijalva, and Members of 
the Committee, I respectfully ask the Committee to take the necessary 
action to move this vital project forward. The St. Croix River Crossing 
Project is no longer a matter of ``if'' it is necessary. That has been 
determined. This is an issue of how much we will pay in dollars, and 
possibly lives, before we act. This bill simply authorizes something 
that should have been done decades ago.
                                 ______
                                 
    Mr. Bishop. Thank you, I appreciate your testimony. As I 
said with all the others, if you have pressing engagements you 
need to go to, we will understand. We will be taking up the 
bill with other witnesses in the course of this. You are 
welcome to stay, join us up here, whatever is your preference.
    Ms. Bachmann. Thank you, Mr. Chair, Ranking Member and the 
Committee.
    Mr. Bishop. Thank you. The last two items on today's agenda 
that we have not yet talked about are mine. The first one is 
H.R. 686, the ``Utah National Guard Readiness Act.'' The bill 
was passed by a voice vote in Congress last year. It is 
sponsored by the entire Utah delegation. Utah is one of the few 
states that has actually met and exceeded its goal of 
recruitment, so there are another 600 personnel for which 
facilities will be needed. This land is along a major 
transportation corridor, which would make it easy for the 
construction of buildings. The land in question has already 
been transferred to the military for use by the Guard. But this 
would consolidate the ownership patterns by the Guard. And the 
State of Utah cannot bond to build facilities on structures 
they do not have, on land they do not own, as well as the time 
line restrictions with land if it was still in the hands of the 
Department of the Interior would make it impossible to go 
forward with this kind of construction needs. As I said, the 
Utah National Guard already owns and operates several buildings 
in this area. This would expedite the building process.
    The second bill, H.R. 765, was probably already discussed 
by Mr. Polis better than I will, but it is one of those things 
that will create jobs and family activities, wholesome family 
activities in recreation outdoors year-round. It updates the 
Ski Area Permit of 1986 to reflect the range of potential 
activities and will allow year-round activities beyond just the 
winter months currently authorized. So this is for a four-
season visitor infrastructure to deal with the situation. 
Congress really can't create jobs, but we can lessen the 
government restrictions, and restraints stand in the way of job 
creation. This is one that would do that. The Forest Service 
will continue to have discretion and decision-making on the 
site-specific proposal for summer or year-round facilities. The 
Forest Service will also collect permit fees for revenues 
generated from summer and year-round activities on the ski 
areas.
    This passed out of the House last session. It was reported 
favorably by the Senate Committee on Energy and Natural 
Resources. However, the Senate failed to find time to actually 
finish the job. The bill is bipartisan. Ms. DeGette of Colorado 
has introduced this last year and is on the bill again. Senator 
Barrasso of Wyoming and Senator Udall of Colorado are the 
supporters of the bill in the Senate.
    With that, it concludes the first panel. What I would like 
to do now is hear from the next panel. If we could have Stephen 
Whitesell, who is the Associate Director, Park Planning, 
Facilities, and Lands of the National Park Service speaking for 
the Department of the Interior come up. And Mary Wagner, who is 
the Associate Chief of the Forest Service, testifying on behalf 
of the Department of Agriculture. And if I can do an audible 
and change it slightly here, is Beth Ganz here with us? Why 
don't you come up and join this panel as well and we can go 
through these bills. She is Vice President of Public Affairs of 
Vail Resorts.
    All right, in front of you, the testimony we would like to 
hear from you, obviously all of your written testimony will be 
included for the record. If you could keep, therefore, your 
oral comments to five minutes. We are trying to fix the timing 
system there that is on and not working, as you can see. Can 
you see your time on your side? All right. In a second we will 
try and get that through. When you begin to speak, the green 
light ought to go on. When the yellow light goes on, you have a 
minute left. When you see the red light, we would like to ask 
you to conclude as quickly as possible. Once again, anything 
else that needs to be submitted for the record will be there. 
Is it on for your view? You can see the small one that has the 
time up there. OK. All right, we just can't see how much longer 
we have. So, we will stumble through this as best we can.
    Mr. Whitesell, we are pleased to have you here. Ms. Wagner, 
this is your first meeting with us? We will try to make it 
memorable. Mr. Whitesell will go first with his testimony and 
then Ms. Wagner. Ms. Ganz, you are here for the ski link bill, 
specifically. We will ask you for your testimony and then open 
it up for questions as we go through that time.
    So, Mr. Whitesell, please.

  STATEMENT OF STEPHEN E. WHITESELL, ASSOCIATE DIRECTOR, PARK 
 PLANNING, FACILITIES, AND LANDS, NATIONAL PARK SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Whitesell. Mr. Chairman, thank you for the opportunity 
to appear before this Subcommittee to present the Department of 
the Interior's views on the six National Park Service bills and 
the two Bureau of Land Management bills on today's agenda. 
Robert Towne, Deputy Assistant Director for the Bureau of Land 
Management is accompanying me and will be happy to answer any 
questions regarding H.R. 686 and H.R. 944, the two Bureau of 
Land Management bills on today's agenda.
    I would like to submit our full statements for the record 
on each of these subject bills and will summarize the 
Department's positions on these bills.
    H.R. 290 seeks to ensure that memorials commemorating the 
service of the United States Armed Forces may contain religious 
symbols. It would apply to military memorials that are 
established or acquired by the Federal Government and to those 
to which the American Battle Monuments Commission cooperated in 
the establishments of the memorial. The Department defers to 
the American Battle Monuments Commission for a position on H.R. 
290, since the purpose of the legislation appears to be to 
amend the portion of the United States Code that covers 
formation and operation of the Commission. And we would defer 
to the Department of Justice as to any First Amendment 
questions.
    H.R. 320 would designate a Distinguished Flying Cross 
National Memorial at March Field Air Museum in Riverside, 
California. This legislation explicitly states that this 
memorial is not a unit of the National Park System. We defer to 
the Department of Defense for a position on H.R. 320, since the 
purpose of the legislation is to further honor military 
personnel who have been awarded the Distinguished Flying Cross 
at a site which is not under the jurisdiction of the Department 
of the Interior.
    H.R. 441 would authorize the Secretary of the Interior to 
issue permits for microhydro projects in a limited area of the 
Kantishna Hills in Denali National Park. The legislation would 
also authorize a land exchange near the historic mining 
community of Kantishna that would be mutually beneficial to the 
National Park Service and Doyon Tourism, Inc., a subsidiary of 
Alaska Native corporation, Doyon Limited. The Department 
supports this legislation with suggested technical corrections.
    H.R. 686 would convey certain lands to the State of Utah 
for Homeland Security or other national defense purposes. While 
the Department does not oppose the bill, the Bureau of Land 
Management would like the opportunity to work with the 
Committee on modifications to the reversionary clause and the 
map referenced by the legislation.
    H.R. 850 would allow construction of a four-lane highway 
bridge over the Lower St. Croix River from Minnesota to 
Wisconsin to relieve heavy traffic on the current two-lane 
bridge. The Department does not support enactment of this 
legislation because it is inconsistent with the Wild and Scenic 
Rivers Act. We are very concerned about the precedent that 
would be established by allowing a bridge project to go forward 
on a wild and scenic river when it is found to have had a 
direct and adverse effect on the designated river. If the 
Committee decides to move H.R. 850 forward, we would like to 
work with you to revise the bill's language. The bill must make 
clear that construction of the bridge over the Lower St. Croix 
River is being authorized as an exception to the Wild and 
Scenic Rivers Act. Any legislation must also especially require 
that the mitigation package be mandatory.
    H.R. 944 would add certain rocks and small islands along 
the coast of Orange County, California, to the California 
Coastal National Monument, managed by the Bureau of Land 
Management. The Department supports this legislation.
    H.R. 1022 would authorize the Secretary of the Interior to 
conduct a study to determine most effective ways to increase 
understanding and public awareness of the critical role that 
Buffalo Soldiers, segregated units composed of African-American 
cavalrymen, played in the early years of the National Parks. 
The Department supports this legislation.
    H.R. 1141 would authorize a study of the suitability and 
feasibility of designating prehistoric, historic, and limestone 
forest sites on Rota, in the Commonwealth of the Northern 
Mariana Islands, as a unit of the National Park System. 
Congressional authorization to conduct a special resource study 
will require a public process to actively engage organizations, 
residents and others in discussions of how best to preserve 
Rota's significant cultural and natural resources. The 
Department supports this legislation.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you may have.
    [The prepared statements of Mr. Whitesell follow:]

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 290

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 290, to amend title 36, United States Code, to 
ensure that memorials commemorating the service of the United States 
Armed Forces may contain religious symbols, and for other purposes.
    H.R. 290 would amend chapter 21 of title 36, United States Code, to 
allow religious symbols to be included as part of either a military 
memorial that is established or acquired by the United States 
Government, or a military memorial not established by the United States 
Government, but for which the American Battle Monuments Commission 
(Commission) cooperated in the establishment of the memorial. H.R. 290 
also defines a military memorial as a memorial or monument 
commemorating the service of the United States Armed Forces, including 
works of architecture and art.
    The National Park Service administers military memorials in the 
District of Columbia, which are subject to the Commemorative Works Act, 
and in other parts of the country. However, the Department would defer 
to the Commission for a position on H.R. 290 to the extent it involves 
memorials administered by the Commission or for which the Commission 
cooperated in the establishment. H.R. 290 may also affect memorials 
administered by the Department of Defense who should have the 
opportunity to offer their views. Additionally, the Department defers 
to the Department of Justice as to any potential First Amendment 
questions raised by H.R. 290.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or any other members of the subcommittee 
may have.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 320

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 320, a bill to designate a Distinguished Flying Cross National 
Memorial at the March Field Air Museum in Riverside, California.
    The Department would defer to the Department of Defense for a 
position on H.R. 320 since the purpose of the legislation is to further 
honor military personnel who have been awarded the Distinguished Flying 
Cross at a site that is not under the jurisdiction of the Department.
    The Distinguished Flying Cross is awarded to a member of the United 
States armed forces who distinguishes himself or herself in support of 
operations by ``heroism or extraordinary achievement while 
participating in an aerial flight.'' We applaud the effort of the March 
Field Air Museum to create a suitable memorial to the honor, bravery, 
and sacrifice of members of our Armed Forces who have earned this 
medal.
    This legislation explicitly states that this memorial is not a unit 
of the National Park System. As this language makes clear, the use of 
the title ``national memorial'' creates a reasonable expectation among 
the general public that it must have an affiliation with the National 
Park Service, which currently administers 27 national memorials across 
the country. This is not the first time this issue has arisen, nor is 
it likely to be the last, and the Department respectfully encourages 
only the most thoughtful and judicious designation of any future 
``national'' memorials or other similar sites.
    That concludes my testimony Mr. Chairman. I would be pleased to 
respond to any questions from you and members of the committee.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 441

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 441, a bill to authorize the 
Secretary of the Interior to issue permits for a micro-hydro project in 
non-wilderness areas within the boundaries of Denali National Park and 
Preserve, and for other purposes.
    The Department supports this legislation with amendments and 
recognizes improvements made from the similar bill introduced in the 
previous session of Congress. H.R. 441 would authorize the Secretary of 
the Interior to issue permits for micro-hydro projects in a limited 
area of the Kantishna Hills in Denali National Park. The legislation 
would also authorize a land exchange between the National Park Service 
(NPS) and Doyon Tourism, Inc. (Doyon) involving lands near the historic 
mining community of Kantishna that would be mutually beneficial to the 
NPS and Doyon.
    This legislation will reduce the use of fossil fuels in the park, 
and thus lessen the chance of fuel spills along the park road and at 
the Kantishna lodges. It will lower the number of non-visitor vehicle 
trips over the park road, lessen the noise and emissions from diesel 
generators in the Moose Creek valley, and support clean energy projects 
and sustainable practices while ensuring that appropriate review and 
environmental compliance protects all park resources.
    Doyon Tourism, Inc., a subsidiary of Alaska Native Corporation 
Doyon, Ltd., has requested permits from the NPS to install a micro-
hydroelectric project on Eureka Creek, near their Kantishna Roadhouse. 
The NPS supports the intent of this project, however, neither the 
Secretary nor the Federal Energy Regulatory Commission (FERC) has the 
statutory authority to issue permits for portions of hydroelectric 
projects within national parks or monuments. We believe that the 
authorization contained in this legislation is necessary to enable the 
NPS to allow this micro-hydroelectric project within the park.
    The Kantishna Roadhouse, at the end of the 92-mile-long Denali park 
road, has been in business for 28 years, hosts approximately 10,000 
guests per summer, and currently uses an on-site 100 kilowatt (KW) 
diesel generator to provide power for the facility. The proposed 
hydroelectric installation would reduce use of the diesel generator at 
the lodge. Currently, delivery of diesel fuel to the lodge requires a 
tanker truck and trailer to be driven the entire length of the Denali 
park road. Noted for its undeveloped character, the road is unpaved for 
77 miles of its 92-mile length, crosses high mountain passes without 
guardrails, and is just one to 1 1/2 lanes wide with pullouts. The road 
is justly famous for wildlife viewing opportunities and in order to 
protect wildlife as well as the road's scenic wilderness character, 
vehicle traffic is limited. Reducing the amount of diesel fuel hauled 
over this road in tanker trucks protects park resources by reducing the 
risk of accident or spill, and simultaneously reduces overall vehicle 
use of the road.
    Eureka Creek is a 4-mile-long stream that drains a 5 square-mile 
watershed and discharges about 15 cubic feet per second (cfs) during 
the summer. Most of the floodplain has been disturbed by past placer 
mining, but no mining claims exist on the creek now and no other 
landowners besides Doyon and the NPS own any property near this 
floodplain. The project would include an at-grade water intake, with no 
impoundment, about one mile upstream of where Eureka Creek crosses the 
park road.
    Camp Denali, another lodge in the Kantishna Hills, is within the 
area addressed by this legislation. Camp Denali opened in 1952 and the 
owners installed a micro-hydro generator system prior to the 1978 
Presidential proclamation that included Kantishna as a part of what is 
now Denali National Park. After 1978, Camp Denali became a private in-
holding surrounded by the park, and found that parts of its micro-hydro 
power system were within the park, a situation that the NPS lacks the 
authority to permit or retain. This legislation, if amended, would 
allow the NPS and the owners of Camp Denali to work out permit 
conditions for those parts of the existing hydro project that are now 
on park land. Besides the Kantishna Roadhouse and Camp Denali, two 
other lodges in Kantishna may pursue similar projects in the future and 
thus would benefit from the authority granted in this legislation.
    Doyon owns 18 acres on the patented Galena mining claim in the 
Kantishna Hills and would like to exchange that acreage for park land 
in Kantishna of equal value near its other properties. The NPS would 
also like to pursue this exchange to consolidate land holdings in the 
area. Existing land exchange authority under the Alaska National 
Interest Lands Conservation Act (ANILCA) and other legislation is 
sufficient to affect this exchange. Thus, while we believe that this 
provision is unnecessary, we support its intent.
    Our concerns with the bill are as follows:
        1)  The bill as introduced requires the Secretary to complete 
        National Environmental Policy Act compliance within 180 days of 
        enactment. While the Department supports a speedy response to 
        the applicant, we suggest the 180-day clock start upon 
        submission of a complete application to the NPS.
        2)  The permitting authority provided by this bill would apply 
        to several micro-hydroelectric projects in the Kantishna area, 
        yet various elements of the bill as introduced appear to apply 
        solely to a project by Doyon. Technical corrections to address 
        this are identified in an attachment to this testimony.
    We believe that the permitting authority granted in H.R. 441 would 
provide a tool that the Secretary could use to lower fossil fuel use in 
Denali National Park, while protecting park resources, and that a land 
exchange would be hastened through passage of this legislation. We 
would welcome the opportunity to work with the sponsor and this 
committee to address our concerns and recommendations.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
ATTACHMENT
    The NPS suggests the following technical corrections to H.R. 441
        1)  On p. 1, line 2 of the long title, strike ``for a 
        microhydro project in nonwilderness'' and insert ``for 
        microhydro projects in nonwilderness''.
        2)  On p. 1, line 5, strike ``2010'' and insert ``2011''.
        3)  On p. 3, line 1, strike ``(i) the intake pipeline located 
        on Eureka Creek, approximately \1/2\ mile upstream from the 
        Park Road, as depicted on the map;'' and insert ``(i) intake 
        pipelines;''
        4)  On p. 3, line 8, strike ``line'' and insert ``lines''.
        5)  On p. 3, line 14, strike ``PROJECT'' and insert 
        ``PROJECTS''.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 686

    Thank you for inviting me to testify on H.R. 686, the Utah National 
Guard Readiness Act. The Department does not oppose the conveyance of 
the lands identified in H.R. 686 to the State of Utah for homeland 
security or national defense purposes. However, we would like the 
opportunity to work with the Committee on modifications to the 
reversionary clause and the map referenced by the legislation.
Background
    Camp W. G. Williams is located approximately 25 miles south of Salt 
Lake City, Utah, in an area of expanding residential development. The 
24,000-acre base is a National Guard training site administered by the 
Utah Army National Guard and includes training facilities for a variety 
of military purposes. Approximately 18,000 acres of the base are 
comprised of public land that has been withdrawn for the benefit of the 
United States Army as a training facility for the Utah Army National 
Guard under the provisions of Executive Order 1922 and Title IX of 
Public Law 101-628, the Arizona Desert Wilderness Act of 1990.
H.R. 686
    H.R. 686 directs the Secretary of the Interior to convey to the 
State of Utah, at no cost, approximately 431 acres of the 18,000-acre 
withdrawal. Those 431 acres are to be used by the Utah Army National 
Guard. The legislation includes a reversionary clause to return the 
land to the ownership of the United States if attempt is made to sell 
the land or use the land for non-National Guard or non-national defense 
purposes.
    Because the public lands proposed for conveyance are currently 
withdrawn for the benefit of the United States Army, a portion of the 
overall withdrawal to the Army is revoked by this legislation in order 
that the lands may be appropriately conveyed. We defer to the 
Department of Defense on the partial revocation of the underlying 
withdrawal.
    The Department generally does not oppose this conveyance at no cost 
because the legislation provides that the land conveyed must continue 
to be used for important national security and defense purposes. 
However, we would note that these lands are already withdrawn for 
military uses to the U.S. Army for use by the Utah National Guard. It 
is unclear why it is necessary to convey these lands directly to the 
State of Utah for use by the National Guard.
    We would like to work with the Sponsor and the Committee on 
modifications to the reversionary clause. Specifically, the 
reversionary clause language is complicated, nonstandard, and would be 
difficult for the Department of the Interior to oversee. We would like 
to discuss placing responsibility for the reversionary interest with 
the Department of Defense in order to ensure that the land is only used 
for national security or homeland defense purposes.
    Additionally, we would like to provide a new map to be referenced 
in the legislation. The BLM in Utah completed work in 2008 that 
corrected past survey problems, and we would like to incorporate this 
up-to-date, accurate information in a new map. Furthermore, the 
Department of Justice advises us of a necessary modification to section 
2(b) of the bill, which they want to address with the Sponsor and the 
Committee. Finally, we have some minor technical modifications we would 
like to address.
    Thank you for the opportunity to present testimony on H.R. 686.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 850

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior (Department) regarding H.R. 850, a bill 
to facilitate a proposed project in the Lower St. Croix National Scenic 
Riverway, and for other purposes. This bill would allow construction of 
a four-lane highway bridge over the Lower St. Croix River from 
Minnesota to Wisconsin to relieve heavy traffic on the current two-lane 
bridge.
    The Department does not support enactment of legislation that deems 
the proposed bridge to be consistent with the Wild and Scenic Rivers 
Act (Act). We are very concerned about the precedent that such 
legislation would establish given that the Department found the bridge 
project would have a direct and adverse effect on the designated river.
    The NPS determined that the St. Croix River Project would have a 
direct and adverse impact to the river and that certain of those 
impacts cannot be mitigated, as documented in its Section 7(a) Wild and 
Scenic Rivers Act evaluation of October 15, 2010.
    The Lower St. Croix National Scenic Riverway (Riverway) received 
protection as a ``study river'' with passage of the Act in 1968. 
Congress subsequently designated the upper 27-mile segment of the Lower 
St. Croix River as a Wild and Scenic River in 1972 and provided that if 
the Governors of the States of Minnesota and Wisconsin submit an 
application for the lower 25-miles the Secretary of the Interior upon 
his approval shall designate that segment. The Governors did submit an 
application and the Secretary designated the lower segment in 1976. The 
Act established a method for providing Federal protection for some of 
our country's remaining free-flowing rivers, preserving them and their 
immediate environments for the use and enjoyment of present and future 
generations.
    In Section 7(a) of the Act, Congress expressed the clear intent to 
protect river values. The Act prohibits Federal agencies from assisting 
in the construction of any water resources project that would have a 
direct and adverse effect on the values of a designated river. Section 
7(a) states:
        ``. . .no department or agency of the United States shall 
        assist by loan, grant, license or otherwise in the construction 
        of any water resources project that would have a direct and 
        adverse effect on the values for which such river was 
        established, as determined by the Secretary charged with its 
        administration...''
    Pursuant to that statute, if the Department determines a direct and 
adverse impact would occur, the project cannot proceed absent 
congressional action.
    The Riverway is administered by the states of Minnesota and 
Wisconsin for 25 miles and the National Park Service (NPS) for 27 
miles. However, the Department of the Interior, through the NPS, has 
responsibility for evaluation of proposed Federal projects for the 
entire 52 miles of the designated river. The NPS is responsible for 
evaluating water resources projects under Section 7(a) of the Act to 
determine whether those Federal projects, including bridges, will have 
a direct and adverse effect on the Riverway's free-flowing condition, 
water quality, and outstandingly remarkable values. Each water 
resources project is evaluated independently on its own merits.
    The Riverway runs fast over sections of exposed bedrock, slow and 
deep over great depositional sediments left by the last glaciers, and 
throughout its course to the Mississippi River, the river carves 
through steep forested bluffs and rich valley bottomlands. Although 
solitude in natural settings is increasingly rare so close to a major 
metropolitan area, the Riverway offers natural solitude and abundant 
recreation.
    In 1995, the Federal Highway Administration (FHWA) released a 
Record of Decision to construct a new bridge over the Lower St. Croix 
National Scenic Riverway and in June 1996 the Sierra Club and Voyageurs 
Region National Park Association commenced a lawsuit against the United 
States Department of Transportation, the Federal Highway 
Administration, the Department and the NPS to enjoin construction of 
the project. They alleged that the Department had violated Section 7(a) 
of the Act by failing to determine whether the new bridge would have a 
direct and adverse effect upon the values for which the Riverway was 
established. In September 1996, the FHWA and its lead partner--the 
Minnesota Department of Transportation (MnDOT)--applied for a Section 
10/404 permit to place fill in the waters of the United States for 
bridge construction. Subsequently, the NPS prepared a Section 7(a) 
evaluation and determined that the project would have a direct and 
adverse effect on the Riverway's scenic and recreational values because 
of its visual impacts and that no available mitigation measures could 
significantly reduce the negative effects of the proposed bridge. 
Therefore, permits could not be issued and the bridge project could not 
go forward. MnDOT, the Wisconsin Department of Transportation (WisDOT) 
and the City of Stillwater, Minnesota, intervened in the lawsuit as 
defendants. They alleged that the 1996 NPS Section 7(a) determination 
was arbitrary, capricious, and in excess of statutory authority. The 
court upheld the 1996 NPS Section 7(a) determination, establishing case 
law that bridges are water resources projects subject to Section 7(a) 
of the Wild and Scenic Rivers Act.
    In 1998, after discussions with legislators and other interested 
parties, the FHWA, MnDOT and WisDOT decided to revisit the issue of a 
river crossing near Stillwater. MnDOT facilitated a consensus-building 
process for a new bridge crossing of the Riverway. This process 
resulted in a new bridge alignment and design as well as a mitigation 
package.
    In 2000, the NPS prepared a Draft Section 7(a) evaluation for 
inclusion in FHWA's Environmental Impact Statement (EIS). This 
evaluation determined that the proposed bridge would have a direct and 
adverse effect on scenic and recreational values; however, the adverse 
effects were adequately offset by the mitigation package developed by 
the stakeholders.
    In 2001, the FHWA suspended that EIS process short of a final 
decision, citing insufficient funds for the implementation of the 
mitigation measures.
    In 2002, the FHWA and its two state partners again re-initiated a 
St. Croix River Crossing EIS process. A ``Stakeholders Group,'' made up 
of 28 representatives of diverse interests was formed to provide input 
to the transportation agencies in their decision-making process. This 
process resulted in a new proposed bridge alignment (similar to the 
original 1996 alignment), a bridge design, and a mitigation package.
    In 2005, the NPS prepared an updated Section 7(a) evaluation that 
determined that the proposed crossing, when taken along with its 
mitigation package, would not have a direct and adverse effect on the 
scenic and recreational values, provided that the mitigation package 
remained intact.
    In 2006, the FHWA issued a new record of decision to allow the 
bridge to be built. The Sierra Club again sued the Secretaries of 
Transportation and the Interior, alleging violations of the National 
Environmental Policy Act, Section 4(f) of the Department of 
Transportation (DOT) Act of 1966 (40 U.S.C. 1653(f)), and the Wild and 
Scenic Rivers Act.
    On March 11, 2010, the U.S. District Court of Minnesota found the 
2005 NPS Section 7(a) evaluation ``arbitrary and capricious'' and 
vacated it.
    On April 6, 2010, the FHWA requested that the NPS prepare a new 
evaluation in response to the court's decision. The NPS released its 
latest Section 7(a) evaluation on October 15, 2010. The evaluation 
determined that, due to visual impacts, the St. Croix River Crossing 
Project would have a direct and adverse impact to the river and that 
those impacts cannot be mitigated.
    NPS transmitted the 2010 Section 7(a) evaluation to the FHWA, 
stating that ``While the NPS believes the mitigation measures are not 
sufficient to eliminate the direct and adverse effects of the Project 
on the Lower St. Croix National Scenic Riverway's designated scenic and 
recreational values, the NPS strongly supports their implementation if 
Congressional action is taken to allow the Project to move forward. The 
mitigation measures are essential to meet the requirements of Section 
4(f) of the DOT Act of 1966 and help the states of Minnesota and 
Wisconsin protect and enhance river values under Section 10(a) of the 
Act. Although the Act precludes authorization of a project that a river 
administering agency has determined will cause direct and adverse 
effects on a designated river, the FHWA can initiate a Congressional 
process for authorizing this specific project in accordance with a 
provision provided under Section 7(a).''
    Although we feel that placing a bridge in an area where one never 
existed would forever change the look of the river, our Section 7(a) 
analysis also referenced the authorization process that is provided for 
in the Wild and Scenic Rivers Act. That process includes notification 
to the Secretary of the Interior sixty days in advance of requesting 
authorization or appropriations from Congress. If this process is 
followed, we feel strongly that any authorization or appropriations for 
this project should include the mitigation package developed by the 
``Stakeholders Group'' to protect and enhance the outstandingly 
remarkable values of the Lower St. Croix National Scenic Riverway.
    If the committee decides to move H.R. 850 forward, the 
Administration would like to work with you to revise the bill's 
language. As drafted, the bill states that this project is consistent 
with the Act. The Department is very concerned that stating that this 
project is consistent with the Act would set a precedent for other 
projects that have direct and adverse impacts on wild and scenic 
rivers. The bill must make clear that construction of the bridge over 
the Lower St. Croix River is being authorized as an exception to the 
Wild and Scenic Rivers Act. We also believe that any legislation must 
also expressly require that the ``Stakeholders Group'' mitigation 
package be mandatory.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions from members of the committee.
                                 ______
                                 

        Statement of the Department of the Interior on H.R. 944

    Thank you for inviting the Department of the Interior to testify on 
H.R. 944, which would add certain rocks and small islands along the 
coast of Orange County, California, to the California Coastal National 
Monument managed by the Bureau of Land Management (BLM). The BLM 
supports H.R. 944.
Background
    The California Coastal National Monument, part of the BLM's 
National Landscape Conservation System, was established by a 
Presidential Proclamation by President Clinton on January 11, 2000, to 
protect:
        ``all unappropriated or unreserved lands and interest in lands 
        owned or controlled by the United States in the form of 
        islands, rocks, exposed reefs, and pinnacles...within 12 
        nautical miles of the shoreline of the State of California.''
    Covering more than 20,000 rocks and small islands spread along 
1,100 miles of the California coastline, the Presidential Proclamation 
protects the Monument's overwhelming scenic quality and natural beauty. 
The Proclamation specifically calls for the protection of the geologic 
formations and the habitat that these rocks and small islands provide 
for seabirds, marine mammals, and other plant and animal life, both 
terrestrial and marine.
    Some particularly significant public rocks and islands off the 
coast of Orange County in the Laguna Beach area provide important 
habitat for a wide variety of upper rocky intertidal species, as well 
as various shorebird species. Additionally, four rock locations--Bird 
Rock and Two Rocks off the City of Laguna Beach, San Juan Rocks off the 
City of Dana Point, and San Marcos Rocks off the southern portion of 
the City of San Clemente--provide important roosting habitat for 
seabirds (including cormorants and the Federally-listed brown pelican) 
and haul-out areas for seals and sea lions.
    In the process of working with local communities on planning for 
the California Coastal National Monument, the BLM discovered that the 
rock features off the coastline of Orange County were under 
Congressional withdrawals dating from the 1930s and, therefore, were 
not included within the Monument. These withdrawals include more than 
40 offshore rocks, small islands, exposed reefs, and pinnacles located 
within one mile of the coast of Orange County, California, totaling 
approximately two acres above mean high tide. More than 70 years old, 
the withdrawals were originally intended to temporarily reserve the 
Orange County offshore rocks and small islands for ``park, scenic, or 
other public purposes'' (1931 Act), and reserve three specific offshore 
rock clusters for the possibility of future lighthouses (1935 Act), 
which were never built. These withdrawals were ultimately never 
utilized and are no longer needed.
    The Laguna Ocean Foundation has led a community-wide effort to 
include these significant areas within the California Coastal National 
Monument. The Foundation has worked with the City of Laguna Beach and 
other local groups, including the Audubon Society and the Surfrider 
Foundation, on a variety of city and area-wide coastal protection and 
monitoring projects, which resulted in H.R. 944.
H.R. 944
    H.R. 944 would eliminate the existing withdrawals on these public 
lands off the coast of Orange County and place these features within 
the existing California Coastal National Monument. The BLM supports the 
revocation of the old withdrawals and the inclusion of these rocks, 
islands, and exposed reefs within the Monument.
    The BLM has been working with partners along the 1,100 mile 
California coast to create a series of California Coastal National 
Monument Gateway community initiatives. These Gateway initiatives are a 
means to support organized local stewardship of various California 
coastal areas through the development of a consortium of the area's 
resource managers and advocates. The Laguna Beach community has 
expressed strong interest in developing a California Coastal National 
Monument Gateway initiative for the Orange County coastal area. 
Inclusion of these rocks and islands within the Monument will allow the 
BLM to work with the community to provide responsible, long-term 
stewardship of these valuable areas.
Conclusion
    Thank you for the opportunity to testify in support of H.R. 944. We 
look forward to passage of this legislation which would place these 
significant features off the coast of Orange County within the 
California Coastal National Monument, thus ensuring their long-term 
protection and preservation, and paving the way for an important local 
community stewardship initiative.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1022

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 1022, to authorize the Secretary of the 
Interior to conduct a study of alternatives for commemorating and 
interpreting the role of the Buffalo Soldiers in the early years of the 
national parks, and for other purposes.
    The Department supports H.R. 1022. However, we feel that priority 
should be given to the 40 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic River System that have not yet been 
transmitted to Congress.
    H.R. 1022 would authorize a study to determine the most effective 
ways to increase understanding and public awareness of the critical 
role that the Buffalo Soldiers, segregated units composed of African-
American cavalrymen, played in the early years of the National Parks. 
It would evaluate the suitability and feasibility of a National 
Historic Trail along the routes between their post at the Presidio of 
San Francisco and the parks they protected, notably Yosemite and 
Sequoia. The study would also identify properties that could meet the 
criteria for listing in the National Register of Historic Places or 
designation as National Historic Landmarks. We estimate that this study 
will cost approximately $400,000.
    African-American 19th and 20th century Buffalo Soldiers were an 
important, yet little known, part of the history of some of our first 
National Parks. These cavalry troops rode more than 320 miles from 
their post at the Presidio to Sequoia and Yosemite National Parks in 
order to patrol and protect them. The journey across the state took 
sixteen days of serious horseback riding averaging over twenty miles a 
day. Once in the parks, they were assigned to patrol the backcountry, 
build roads and trails, put a halt to poaching, suppress fires, halt 
trespass grazing by large herds of unregulated cattle and sheep, and 
otherwise establish roles later assumed by National Park rangers.
    The U.S. Army administered Sequoia and Yosemite National Parks from 
1891 to 1914, when it was replaced by civilian management. The National 
Park Service was not created until 1916, 25 years after these parks 
were established. Commanding officers became acting military 
superintendents for these national parks with two troops of 
approximately 60 cavalry men assigned to each. The troops essentially 
created a roving economy--infusing money into parks and local 
businesses--and thus their presence was generally welcomed. The 
presence of these soldiers as official stewards of park lands prior to 
the National Park Service's establishment brought a sense of law and 
order to the mountain wilderness.
    Less well known, however, is the participation of African-American 
troops of the 24th Infantry and 9th Cavalry, the Buffalo Soldiers, who 
protected both Sequoia and Yosemite National Parks in 1899, 1903, and 
1904. These troops and their contributions should be recognized and 
honored, and this bill does just that.
    When the new military superintendent for the summer of 1903 arrived 
in Sequoia National Park he had already faced many challenges. Born in 
Kentucky during the Civil War, Charles Young had already set himself a 
course that took him to places where a black man was not often welcome. 
He was the first black to graduate from the white high school in 
Ripley, Ohio, and through competitive examination he won an appointment 
to the U.S. Military Academy at West Point in 1884. He went on to 
graduate with his commission, only the third black man to do so.
    In 1903, Young was serving as a captain in the cavalry commanding a 
segregated black company at the Presidio of San Francisco when he 
received orders to take his troops to Sequoia National Park for the 
summer. Young and his troopers arrived in Sequoia after a 16-day ride 
to find that one of their major assignments would be the extension of 
the wagon road. Hoping to break the sluggish pattern of previous 
military administrations, Young poured his considerable energies into 
the project. During the summer of 1903, Young and his troops built as 
much road as the combined results of the three previous summers, as 
well as building a trail to the top of Mt. Whitney--the highest point 
in the contiguous United States.
    The soldiers also protected the giant sequoias from illegal 
logging, wildlife from poaching, and the watershed and wilderness from 
unauthorized grazing by livestock. A difficult task under any 
circumstances, the intensity was undoubtedly compounded by societal 
prejudice common at the turn of the century.
    Although Colonel Charles Young only served one season as Acting 
Superintendent of a National Park, he and his men have not been 
forgotten. The energy and dignity they brought to this national park 
assignment left a strong imprint. The roads they built are still in use 
today, having served millions of park visitors for more than eighty 
years. The legacy they left extends far beyond Sequoia National Park, 
as they helped lay the foundation for the National Park System, which 
continues to inspire and connect people of all backgrounds to public 
lands and natural treasures to this day.
    In recent years the National Park Service has made an effort to 
chronicle the achievements of these men in San Francisco and in Sequoia 
and Yosemite National Parks. In the Presidio of San Francisco, Golden 
Gate National Recreation Area and the Presidio Trust have developed an 
education program using the historic stables that the Buffalo Soldiers 
actually used to house their horses. In Yosemite National Park, Ranger 
Shelton Johnson portrays one of the U.S. Army's Buffalo Soldiers as 
part of his interpretation of Yosemite's history. Sequoia National Park 
has a giant sequoia named for Colonel Young in honor of his lasting 
legacy in that park. These isolated, but important efforts to educate 
the public on the important role of the Buffalo Soldiers could be 
heightened by this consolidated study.
    There is a growing concern that youth are becoming increasingly 
disconnected with wild places and our national heritage. Additionally, 
many people of color are not necessarily aware of national parks and 
the role their ancestors may have played in shaping the national park 
system. NPS can help foster a stronger sense of awareness and knowledge 
about the natural and cultural history preserved in our natural parks 
by connecting people, especially these audiences, to the critical roles 
of African-American Buffalo Soldiers in the protection and development 
of natural treasures like Sequoia and Yosemite National Parks. By 
amplifying the story of the Buffalo Soldiers, this bill could help 
bridge cultural divides and expand opportunities to appeal to an all-
inclusive audience. As the 2016 centennial of the National Park Service 
approaches, it is an especially appropriate time to conduct research 
and increase public awareness of the stewardship role the Buffalo 
Soldiers played in the early years of the National Parks.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions that you or other members if the subcommittee may 
have.
                                 ______
                                 

 Statement of Stephen E. Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                         Interior, on H.R. 1141

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's testimony regarding H.R. 1141, a bill to 
authorize the Secretary of the Interior to study the suitability and 
feasibility of designating prehistoric, historic, and limestone forest 
sites on Rota, Commonwealth of the Northern Mariana Islands, as a unit 
of the National Park System.
    The Department supports H.R. 1141. Priority should be given, 
however, to the 40 previously authorized studies for potential units of 
the National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic River System that have not yet been transmitted to Congress.
    H.R. 1141 would authorize the Secretary of the Interior to complete 
a Special Resource Study of sites on the Island of Rota for potential 
inclusion in the National Park System. We estimate that this study will 
cost approximately $250,000 to $300,000.
    Rota, where the indigenous Chamorro and Carolinian people have 
retained their cultural heritage in its natural environment, is the 
southernmost island of the Commonwealth of the Northern Mariana Islands 
(CNMI). Spared the population displacement of other colonial islands 
and largely bypassed during World War II, Rota preserves striking 
examples of the three thousand-year-old Chamorro culture surrounded by 
the best remaining expanse of this island chain's native limestone 
forest.
    The Mochon Latte Village, the Chugai Pictograph Cave, the Taga 
Latte Stone Quarry, and the Alaguan Bay Ancient Village prehistoric 
sites include architectural features unique to the ancient Chamorro 
culture and represent outstanding examples of the territory's cultural 
resources. These sites possess a high degree of integrity in location, 
materials, workmanship and association.
    The limestone forests of Rota are the most intact and most 
extensive examples of primary, native limestone forest remaining on any 
island in the Mariana Archipelago. The forest provides and sustains 
habitat for endangered bird species, a threatened species of fruit bat, 
and numerous species of invertebrates that are proposed for listing as 
threatened or endangered. Several of these species are endemic to Rota. 
The significance of this unique biotic community cannot be overstated.
    Rota's residents and legislative delegation have demonstrated an 
extraordinary commitment to the protection of the island's environment. 
In 2004, Senator Diego M. Songao, Chairman of the Rota Legislative 
Delegation of the Fourteenth Commonwealth Legislature, formally 
requested planning assistance from the National Park Service (NPS).
    In response to this request, the NPS completed a reconnaissance 
survey of Rota's natural and cultural resources in September of 2005. 
The reconnaissance survey found that the natural and cultural resources 
of the island of Rota are significant to island residents, the CNMI, 
and the entire nation and merit protection. It also made a preliminary 
finding that these resources are likely to be suitable and feasible for 
inclusion in the park system.
    At present, the people of Rota and their political leaders find 
themselves at a crossroads regarding the uses to which their lands are 
being put. Major land use changes are continuing to take place in the 
form of residential and agricultural lots being subdivided out of the 
island's public lands and transferred into private ownership.
    At this time, none of Rota's resources are guaranteed protection 
for future generations. Congressional authorization to conduct a 
Special Resource Study will provide a public process to determine the 
suitability and feasibility of designating prehistoric, historic, and 
limestone forest sites on Rota, Commonwealth of the Northern Mariana 
Islands, as a unit of the National Park System. The NPS would be 
pleased to actively engage organizations, residents and others in 
discussions of how best to preserve Rota's significant cultural and 
natural resources.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions that you or other members of the committee might have.
                                 ______
                                 
    Mr. Bishop. Thank you. Ms. Wagner would you like to go over 
the Forest Service issues?

          STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, 
      U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Mr. Chairman, and members of the Subcommittee. 
The U.S. Department of Agriculture has submitted written 
testimony for the record. I am just going to offer several 
comments for each of the bills under consideration in front of 
you today.
    H.R. 241, to authorize the conveyance of National Forest 
System lands in the Los Padres National Forest is intended to 
resolve a longstanding encroachment of the White Lotus 
Foundation. The bill today differs from the bill introduced 
last Congress in that it provides a provision for a land 
exchange and requires the Foundation to pay survey, appraisal 
and other administrative costs associated with the exchange or 
the sale. We appreciate the Committee's efforts to resolve this 
longstanding encroachment and to address previously identified 
issues we expressed during the last Congress. While we still 
have concerns about this bill, we are open to solutions and we 
are committed to working with the Committee to resolve this 
encroachment.
    H.R. 643, the ``Sugar Loaf Fire Protection District Land 
Exchange'' is a proposal to exchange or sell two parcels on the 
Arapaho-Roosevelt National Forest in Colorado to the Sugar Loaf 
Fire Protection District. We support this legislation and thank 
members of the Committee for addressing concerns expressed when 
we testified last Congress. We see H.R. 643 as a benefit to 
efficient management of the Arapaho National Forest and to 
promoting emergency services for citizens in the Fire 
Protection District.
    And last, the Department supports H.R. 765, the ``Ski Area 
Recreational Opportunity Enhancement Act.'' We appreciate the 
Committee's efforts to address concerns expressed previously. 
Americans see ski areas and experience ski areas as portals to 
the National Forests and a means to greater appreciation of 
nature. Over one-fifth of the entire number of visits to 
National Forests occur in ski areas. This legislation 
encourages greater recreation use at our most developed sites, 
enhances the long-term viability of ski areas, and sustains the 
adjoining gateway communities.
    Mr. Chairman, Ranking Member Grijalva, members of the 
Committee, this concludes my comments and I would be happy to 
answer your questions.
    [The prepared statement of Ms. Wagner follows:]

      Statement of Mary Wagner, Associate Chief, Forest Service, 
  U.S. Department of Agriculture, on H.R. 241, H R. 643, and H.R. 765

    Mr. Chairman and Members of the Subcommittee, I am Mary Wagner, 
Associate Chief for the U.S. Forest Service. Thank you for the 
opportunity to appear before you to provide the views of the U.S. 
Department of Agriculture (USDA) on three of the bills that you are 
considering today.
H.R. 241 TO AUTHORIZE THE CONVEYANCE OF CERTAIN NATIONAL FOREST SYSTEM 
        LANDS IN THE LOS PADRES NATIONAL FOREST IN CALIFORNIA
    H.R. 241 is intended to address a longstanding encroachment by the 
White Lotus Foundation (Foundation) on National Forest System lands 
managed by the Los Padres National Forest in Santa Barbara County, 
California. The encroachment does not qualify for resolution under 
existing authorities, namely, the Small Tracts Act (P. L. 97-465). The 
Department appreciates this Committees' efforts to resolve this issue; 
however, we do not support H.R. 241 because there would be limited 
benefit to the public from this conveyance.
    H.R. 241 differs from the bill introduced last Congress (H.R. 129) 
in that it includes the provision for a land exchange and the 
requirement that the Foundation pay for the reasonable costs of any 
surveys, appraisals, and any other administrative costs associated with 
the proposed land exchange or sale. This legislation would require the 
Secretary to exchange up to five acres of National Forest System land 
upon which the Foundation has encroached if the Foundation offers to 
convey a parcel of non-Federal land that is acceptable to the Secretary 
and if the Secretary determines that the public interest would be 
served by making the exchange. If the land exchange is not completed 
within 2 years following the date of enactment of the Act, the 
Secretary would have the option of selling the encroached-upon National 
Forest System land to the Foundation for fair market value.
    It is unlikely a land exchange could be completed within two years 
of enactment because the Foundation has not been in consultation with 
the Forest Service about potential properties to be exchanged and the 
normal time frame for these exchanges exceeds a two year time frame. 
For lands to become part of the National Forest System, a rigorous and 
thorough vetting process that includes title and boundary work as well 
as surveys for hazardous materials must be completed prior to the 
exchange. Currently there is a two to three year wait in the Pacific 
Southwest Region for land exchanges. Therefore, the provision for a 
land exchange would likely not be used and instead, after two years, 
the land sale option to convey the land to the Foundation would be 
utilized.
    Last Congress, the Department testified before this Subcommittee on 
H.R. 129 which authorized the sale of the same lands to the Foundation. 
As previously stated on H.R. 129, our concern is that H.R. 241 would 
benefit only the Foundation with no public benefit. This legislation 
would serve only a small, select group of citizens--the White Lotus 
Foundation. In addition, the conveyance would legitimize the 
Foundation's long standing encroachments on lands in the Los Padres 
National Forest by allowing the Foundation to acquire the encroached 
land through legislation for the Foundation's private use and 
enjoyment. There are other adjacent landowners in the area with similar 
encroachments on National Forest System lands in the Los Padres 
National Forest. These landowners are following this legislation with 
interest, as a model for resolving their encroachment cases. Resolving 
the White Lotus Foundation encroachments through H.R. 241 would 
therefore set a precedent for resolution of other encroachment cases 
through case-specific legislation.
H.R. 643 SUGAR LOAF FIRE PROTECTION DISTRICT LAND EXCHANGE ACT
    H.R. 643 would provide for the exchange or sale of two parcels of 
National Forest System lands within the boundaries of the Arapaho 
National Forest in Colorado to the Sugar Loaf Fire Protection District 
(SLFPD). A portion of one parcel is currently being used by SLFPD as a 
fire station under special use permit. The other parcel was under a 
similar permit that has expired. The Department supports this 
legislation and wishes to thank the Members of the Committee for 
addressing the concerns expressed when we testified on the bill under 
consideration last Congress (H.R. 3923).
    The National Forest System lands proposed for conveyance have lost 
their national forest character. The lands that would be conveyed to 
the United States have suitable national forest character and would 
contribute to increased management efficiency. In addition, thanks in 
large part to previous work that has been done between the Forest 
Service (Arapaho-Roosevelt National Forest) and The Sugar Loaf Fire 
Protection District, we believe that the Forest Service and SLFPD will 
meet Congress' intent to have the parcels exchanged within 1 year.
    The Department supports the work of the SLFPD and its efforts to 
improve facilities to deliver services more effectively. We view H.R. 
643 as both benefitting management of the Arapaho National Forest and 
promoting emergency services in the fire protection district.
H.R. 765 SKI AREA RECREATIONAL OPPORTUNITY ENHANCEMENT ACT OF 2011
    H.R. 765 would amend the National Forest Ski Area Permit Act of 
1986 to authorize the Secretary to permit seasonal or year-round 
natural resource-based recreational activities and associated 
facilities at ski areas, in addition to those that support Nordic and 
alpine skiing and other snow sports that are currently authorized by 
the Act. The Department supports H.R. 765 and wishes to thank the 
Members of the Committee for addressing the concerns expressed when we 
testified last Congress on H.R. 2476. Like its predecessor, H.R. 765 
would promote seasonal or year-round recreation opportunities at ski 
resorts on National Forest System lands and, by doing so, would expand 
the opportunities for ski areas to attract visitors during all four 
seasons.
    The additional seasonal or year-round recreational activities and 
associated facilities authorized by the bill would have to encourage 
outdoor recreation and enjoyment of nature and, to the extent 
practicable, would have to harmonize with the natural environment. The 
bill specifies certain recreational activities and facilities that 
could, under appropriate circumstances, be authorized and those that 
would be excluded from authorization. The bill would make clear that 
the primary purpose of the authorized use and occupancy would continue 
to be skiing and other snow sports.
    There are 122 ski areas operating under permit on National Forest 
System lands. These ski areas occupy less than 1 percent of all 
National Forest System lands. Nevertheless, about one-fifth of all 
recreation in national forests occurs at these ski areas. The ski areas 
are some of the most developed sites in the national forests. However, 
for many Americans, ski areas are portals to the national forests and a 
means to greater appreciation of the natural world.
    Focusing more of developed outdoor recreational activities within 
ski areas is appropriate and would reduce impacts on less developed 
areas in the national forests. If H.R 765 is enacted, we would develop 
criteria for the types of seasonal or year-round activities that would 
be appropriate at ski areas to provide a basis for case-specific 
proposals at the local level in accordance with established law, 
regulations, and procedures including the Secretary's duties to involve 
the public in his decision-making and planning for the national 
forests.
    In summary, this legislation would encourage greater recreational 
use of the national forests and would concentrate highly developed 
recreation in areas that are currently among the most developed sites 
in national forests. In addition, the legislation would enhance the 
long-term viability of the ski areas on National Forest System lands 
and the adjoining rural economies.
    Mr. Chairman, Ranking Member Grijalva and Members of the 
Subcommittee, this concludes my testimony. I'll be happy to answer any 
of your questions.
                                 ______
                                 
    Mr. Bishop. Thank you. Ms. Ganz, if you could speak to the 
one, I think you are here for the one bill, right?
    Ms. Ganz. Right.
    Mr. Bishop. If you could speak to that, I would appreciate 
it.

 STATEMENT OF BETH GANZ, VICE PRESIDENT OF PUBLIC AFFAIRS AND 
             SUSTAINABILITY, VAIL RESORTS, COLORADO

    Ms. Ganz. Mr. Chairman, Ranking Member Grijalva and members 
of the Committee, my name is Beth Ganz and I am the Vice 
President of Public Affairs and Sustainability at Vail Resorts. 
Thank you for the opportunity to testify on behalf of the 
National Ski Areas Association and Vail Resorts in strong 
support of H.R. 765, the ``Ski Area Recreational Area 
Opportunity Enhancement Act.'' I would like to recognize 
Chairman Bishop for his leadership on this important 
legislation.
    NSAA is an association of 326 ski resorts across the 
country, 121 of which operate on public lands. Vail Resorts has 
six of these mountains in Colorado, California and Nevada, five 
of which are in the National Forest. Ski areas occupy less than 
one-tenth of one percent of Forest Service lands, yet they 
serve as one of the primary gateways to our public lands and 
the outdoors. The 60 million people who visit ski resorts 
annually represent 20 percent of all recreation visits to the 
National Forest. The partnership between the ski area operators 
and the U.S. Forest Service yields tremendous recreation 
opportunities while also providing economic, conservation and 
forest education benefits.
    H.R. 765 is intended to update some antiquated provisions 
in the Ski Area Permit Act, clarify the Forest Service's 
authority, and provide guidance related to the permitting of 
appropriate seasonal and year-round recreational activities and 
facilities at ski areas.
    The bill also represents a unique opportunity to provide 
economic stimulus to the rural economies that surround the 
resorts. And to do so in an environmentally sustainable way. 
Ski resorts companies are frequently one of the largest 
employers in the small mountain regions in which they operate, 
as well as create other economic opportunities for the local 
population base. With the successful passage of this bill, ski 
areas and their communities can transform from winter season 
destinations into year-round destinations. Year-round 
visitation creates year-round employment opportunities and 
bolsters local government and state coffers with increased 
tourism revenues. Revenues to the Forest Service will also 
increase via year-round permit fees that public land resorts 
generate.
    As I mentioned earlier, there is also conservation value in 
allowing and encouraging year-round recreation at ski areas. 
Ski areas are developed recreation sites, with the 
infrastructure needed to support high levels of visitation. 
Such as parking lots, restaurants, rest rooms and other 
facilities. By providing high quality and accessible recreation 
at ski areas, the potentially undesirable impacts of unmanaged 
recreation can be avoided in other parts of the forest.
    The intent of this bill is not to change the nature of ski 
areas on public lands. We believe there is great potential for 
resorts to expand their offerings of seasonal and year-round 
recreational activities in a manner that fully appreciates the 
landscape of the forest. An activity or facility should 
primarily benefit from or utilize the natural features of the 
mountain, the way zip lines and alpine slides use the downward 
sloping contours of a mountain.
    We firmly believe that H.R. 765 will provide additional 
year-round activities that will greatly increase the public's 
enjoyment of their national forests. Thank you again for the 
opportunity to appear before the Committee. NSAA and Vail 
Resorts stand ready to work with Chairman Bishop and the 
Committee to move this important legislation forward. Thank 
you.
    [The prepared statements of Ms. Ganz follow:]

     Statement of Beth Ganz, Vice President of Public Affairs and 
   Sustainability, Vail Resorts, on behalf of the National Ski Areas 
                        Association, on H.R. 765

    Chairman Bishop, Ranking Member Grijalva and members of the 
Committee, thank you for the opportunity to appear before you today. On 
behalf of Vail Resorts and the National Ski Areas Association I am 
pleased to provide the following testimony in support of H.R. 765, the 
Ski Area Recreational Opportunity Enhancement Act.
    NSAA has 121 member ski areas that operate on National Forest 
System lands. These public land resorts are in the states of Arizona, 
California, Colorado, Idaho, Montana, Nevada, New Hampshire, New 
Mexico, Oregon, Utah, Vermont, Washington and Wyoming. Vail Resorts 
owns and operates six resorts in Colorado, Nevada and California of 
which five are located on public lands.
    At the outset, we would like to thank Chairman Bishop for his 
leadership on this bill.
Background
    Public land resorts work in partnership with the US Forest Service 
to deliver an outdoor recreation experience unmatched in the world. Our 
longstanding partnership--dating back to the 1940s, is a model public-
private partnership that greatly benefits the American public. The 
recreation opportunities provided at public land resorts help benefit 
rural economies, improve the health and fitness of millions of 
Americans, provide kids and families great outdoor experiences and 
promote appreciation for the natural environment.
    In addition to the recreation benefits that ski areas provide 
throughout the year there are economic benefits that must be 
considered. Resorts are frequently one of the largest employers in the 
rural regions in which they operate, providing important employment and 
other economic opportunities for their local population base. The 
presence of resorts provides a critical component of the economy in 
many areas of the country.
    Over the past five years, we have averaged 58.6 million skier/
snowboarder visits annually, and about 60% of those visits occurred on 
public land. Yet ski areas occupy less than one-tenth of one percent of 
Forest Service lands.
    Ski areas are the perfect place to accommodate these large numbers 
of forest visitors and not just in the winter. It is important to 
remember that ski areas are developed sites. They inspire appreciation 
for the natural environment, but they also represent a built 
environment that is accessible and convenient for visitors. Ski areas 
already have the parking lots, bathrooms, trails and other facilities 
to accommodate millions of summer visitors. Use of developed ski areas 
during all times of the year allows the Forest Service to provide 
recreation opportunities to millions of visitors in a controlled and 
mitigated environment thus alleviating the impacts elsewhere on the 
forests.
Summer and Year-Round Activities
    Summer and year-round activities are not new to ski areas. Resorts 
across the country have offered summer activities for decades, with 
scenic chairlift rides dating back to the 1960s. These activities 
include mountain biking, scenic chairlift rides, hiking, ziplines, 
alpine slides, climbing walls, Frisbee golf and others. Until very 
recently, the authorization of summer activities at public land resorts 
occurred without issue. Many ski area special use permits reference 
``year-round'' or ``four season'' resorts. The Forest Service Manual 
expressly encourages the year-round use of resort facilities. Even 
Congress recognized the four-season nature of resorts back in 1996 by 
including the term ``gross year-round revenue'' in our fee system (16 
USC 497c). Resorts have acted in reliance of these authorities, and the 
federal government has collected fees on summer activities, for 
decades.
    So why are we here? NSAA strongly supports H.R. 765 to create a 
national comprehensive approach to growing seasonal and year-round 
recreational opportunities. Such an approach will provide for more 
consistent decision making and more accurately reflect what is now 
taking place at modern four-season resorts.
    Summer and year-round recreation can transform ski areas and their 
rural communities from single season destinations into year-round 
destinations. Year-round visitation increases year-round employment 
opportunities in rural resort communities, creating a more stable 
workforce and local economy. It should also be noted that public land 
resorts generate permit fees for the Forest Service from all revenues 
generated by activities at ski areas. The Congressional Budget Office 
confirmed this last point in the 111th Congress stating that the bill 
would not negatively impact the federal budget and that it will 
minimally increase receipts to the Treasury.
    We believe that there is great potential for resorts to expand 
their offerings of seasonal and year-round recreational activities. 
According to NSAA statistics, the average resort's non-ski season 
operations account for just 6.9 percent of overall revenues 
illustrating this point. H.R. 765 could prove to be an economic boost 
to many rural areas improving local employment, food and beverage 
receipts, lodging and providing gateway access to the public's 
enjoyment of their public lands.
The Bill
    Specifically, H.R. 765 clarifies the Forest Service's authority to 
permit appropriate seasonal or year-round recreational activities and 
facilities subject to ski area permits issued by the Secretary under 
section 3 of the National Forest Ski Area Permit Act of 1986 (16 USC 
497b). The bill is also an opportunity to update the language used to 
describe snow-sports to better reflect the wide range of snow sports 
(including snowboarding, snow-biking, etc) taking place at modern ski-
areas. NSAA notes and appreciates the discretion and guidance the bill 
provides to the Secretary to make site-specific decisions on 
appropriate activities and facilities that are natural resource-based, 
outdoor developed recreation that harmonize with the natural 
environment of the public lands.
    In the 110th and 111th Congress, the Administration testified in 
support of the bill and stated that further clarifications would assist 
the Forest Service in its interpretation and implementation of the 
bill. During consideration in the 111th Congress the legislation was 
amended with the input of the National Ski Areas Association, U.S. 
Forest Service, committee staff and other stakeholders. The bill as you 
see it today reflects those amendments as agreed to in the Senate which 
are largely similar to the House passed version of the bill.
    Thank you for your consideration of H.R. 765. This bi-partisan, no-
cost and non-controversial legislation is important to ski areas across 
the country and we encourage its swift passage.
    Thank you again for the opportunity to appear here today.
                                 ______
                                 
    Mr. Bishop. I thank you for your testimony. What I would 
like to do is do this a little bit differently to try and 
expedite the situation. There are three bills that been 
testified to by the Forest Service, impact the Forest Service: 
H.R. 241, H.R. 643. H.R. 241 is the California Forest, H.R. 643 
is the Colorado Fire issue, and H.R. 765, the Ski link bill. I 
have no questions on those three bills. I would like to deal 
with those first, and then we can go back to the other bills 
later.
    Are there questions specifically for those three, Forest 
Service. Ranking Member?
    Mr. Grijalva. I have no questions on those.
    Mr. Bishop. Mr. Kildee, do you have a question on those 
three? On either of those three? The three that have the Forest 
Service impact, H.R. 241, H.R. 643 and H.R. 765.
    Mr. Kildee. I want to ask about H.R. 850.
    Mr. Bishop. All right, let us wait for that one then. 
Representative, the gentleman from Florida, did you have any 
questions on these three bills? The gentleman from California.
    Mr. Garamendi. Just on a related issue, and this question 
goes to Ms. Wagner. Representative Lungren and I have been 
working on a historic cabin located in the Mokelumne Wilderness 
Area. We have not had a satisfactory answer from the Forest 
Service on how it will protect and maintain that and we have 
withheld legislation pending a satisfactory answer. We may very 
well have to introduce legislation to compel a satisfactory 
answer. I would like your attention to that matter. Monty Wolf 
Cabin, Mokelumne Wilderness Area, California, in Mr. Lungren's 
district. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Are there any other questions, then on those 
three bills. If not, we appreciate the testimony. Ms. Wagner, 
hopefully it was painless. And Ms. Ganz, I appreciate you being 
here on those three issues. If you would like to leave now, you 
are free to. Mr. Whitesell, I hope you would stay here for a 
minute as we go through the Bureau of Land Management bills 
that are there.
    As I said, Mr. Young has joined us now. He has, which one 
is yours, you are H.R. 441? H.R. 441. And I would recognize Mr. 
Young for his statement if he has one.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Mr. Chairman, thank you. And I will submit a 
statement for the record. This is a piece of legislation I am 
happy to say the Park Service supports. That makes me feel 
quite good. We have had our little differences in the past 
month, and Mr. Chairman I hope we can address those 
differences. This is the way something should work. This is 
helping everyone, it is a win-win situation. We have taken, we 
will replace diesel fuel with a microhydro situation that will 
make and produce clean energy and everybody will be happy. And 
I just hope, Mr. Chairman, that this bill moves forward in an 
expeditious way. And again I urge you and the Park Service to 
understand that we can work together as long as you listen to 
the people and not just the Park Service. I am very serious 
about that. If you just listen to the Park Service, you are 
going to have a dog-fight, because you are not always right--
especially, when you sit here in Washington, D.C. or downtown 
Anchorage--listening to those who don't know squat about the 
Park Service in Alaska.
    But this is a situation where, very frankly, I am quite 
pleased that they support it. It is good for the Doyon 
Corporation. It is good for the Park Service and we will have 
clean air using hydro as we should be able to do so. Mr. 
Chairman, with that, I just submit my statement for the record.
    [The prepared statement of Mr. Young follows:]

        Statement of The Honorable Don Young, a Representative 
           in Congress from the State of Alaska, on H.R. 441

    Chairman Bishop and Ranking Member Grijalva, thank you for holding 
a hearing on this important legislation.
    H.R. 441, the Kantishna Hills Renewable Energy Act would authorize 
the Secretary of the Interior to issue permits for a micro-hydro 
project within a non-Wilderness area of Denali National Park. 
Additionally, it will facilitate a small land exchange between the 
National Parks Service and Doyon, Ltd, which owns and operates the 
facilities that will take advantage of the proposed micro-hydro 
project. Roughly, only six acres of land would be affected. Doyon is 
one of thirteen Alaska Native Regional Corporations, formed under the 
Alaska Native Claims Settlement Act (ANCSA).
    Currently, the facilities at Kantishna, which is located at the end 
of the 90-mile park road, operate exclusively off diesel fuel. Not 
being connected to any grid system, the Roadhouse must produce all of 
its energy onsite. This means trucking thousands of gallons of diesel 
fuel over the long and treacherous park road. Energy created by this 
microhydro project could cut the Roadhouse's diesel usage in half, and 
drastically reduce the need for these trips.
    Down the road at the new Eielson Visitors Center, the National 
Parks Service operates a similar microhydro project to great success, 
and the Kantishna Roadhouse seeks to take advantage of similar 
technology to help rid their reliance on costly diesel fuel.
    In conclusion, this legislation is a win-win that benefits the 
environment and all parties involved. Again, I thank the Chairman and 
Ranking Member for including this bill in today's hearing and I look 
forward to working with the Members of this Committee in advancing this 
bill.
                                 ______
                                 
    Mr. Bishop. Thank you very much. Now let me try and once 
again expedite this as we can. There are one, two, three, four, 
five, six, seven, eight bills to which you testified. Are there 
any questions? Let me go through the H.R. 290, the ``War 
Memorial Protection Act'' for this witness? What about the 
``Distinguished Flying Cross National Monument,'' any questions 
to that one? Any question to deal with Mr. Young's bill on 
Renewable Energy Act? Nope? OK, the ``Utah National Guard 
Readiness Act.''
    I do have one statement to make and a question. You said 
there were two things you would like to do. If you do have a 
new map, I would be happy deal with that. If you want changes 
in the reversionary language, I really don't care. But the 
language that is in there was requested of us last year by 
staff. So, you get them to like it, I will like it as well.
    H.R. 850 I believe is going to have more comments. Oh, I am 
sorry. I will come back to H.R. 850. OK. H.R. 945, H.R. 944 was 
the rocks in California. Any questions to that measure? And 
then H.R. 1022 was the ``Buffalo Soldier in the National Park 
Study Act.'' And then the final one is the ``Rota Cultural and 
Natural Resources Study Act,'' any questions to that? OK, then 
last bill is then H.R. 850 and I am assuming there are going to 
be some questions to that. So, what I would ask, Mr. Whitesell, 
if you would stay there and let me have the other three 
panelists who are going to testify to that come up and join you 
there at the table, we will go through their testimony then ask 
questions of H.R. 850, if that is OK. Mr. Garamendi.
    Mr. Garamendi. It may very well be that the issue that I 
have can be resolved with the question to the National Park 
Service, and not necessarily to the witnesses, so.
    Mr. Bishop. I am sorry.
    Mr. Garamendi. My question goes to the National Park 
Service, but fine let us go ahead.
    Mr. Bishop. On H.R. 850? Yes, OK. Mr. Young, you have 
something you want to submit for the record?
    Mr. Young. Mr. Chairman, I apologize, I would ask the 
consent that the testimony from Doyon Limited will be submitted 
for the record at this time.
    Mr. Bishop. Thank you, without objection, so ordered.
    I would ask to come to the panel, Mayor David, I am 
screwing your name up, I apologize, Beaudet, of City of Oak 
Park Heights, and I believe that is in Wisconsin?
    Mr. Beaudet. Minnesota.
    Mr. Bishop. Minnesota, I am sorry. If you will come 
forward. Mayor Ken Harycki, of Stillwater, Minnesota, if you 
will come and join us. And Mr. Curt Geissler, President, 
Lakeview Memorial Hospital in Stillwater, if you will join us 
as well. And, I think the three of you are going to testify to 
H.R. 850. What I would like to do is hear your testimony, first 
on H.R. 850. Then we will open it up for all four of you to 
answer questions of the Committee. So, with that once again, I 
think we went through that. Your written statements will appear 
in the record. This is the oral part that we add. We ask you to 
keep it to five minutes. You can see in front of you the red 
light. It means that is when the time is up. The yellow, you 
got a minute left, so hustle. And the green says you are on. 
OK? So, Mayor Beaudet. Was that close?
    Mr. Beaudet. Close.
    Mr. Bishop. From Oak Park, you are recognized for five 
minutes.

            STATEMENT OF HON. DAVID BEAUDET, MAYOR, 
              CITY OF OAK PARK HEIGHTS, MINNESOTA

    Mr. Beaudet. Thank you. Good morning, Mr. Chairman, Ranking 
Member Grijalva, and members of the Subcommittee. I am David 
Beaudet, Mayor of the City of Oak Park Heights and testifying 
on behalf of myself.
    Mr. Bishop. Can I have you speak a little bit closer to 
that mike?
    Mr. Beaudet. Yes. The City is just under 5,000 people, is 
located along the St. Croix National Scenic Riverway, exactly 
where the new bridge is proposed. I appreciate the opportunity 
to speak, to testify in opposition to House Resolution 850. We 
need a new bridge crossing the St. Croix River. But the bridge 
that is referenced in H.R. 850 is a project that is inflated 
out of scale. It is out of scale for the taxpayers who will pay 
for it, out of scale for the property owners who will live with 
the impact of the giant structure, and out of scale with the 
river itself and the Lower St. Croix River Valley.
    Of course, the Wild and Scenic Rivers Act was passed in 
1968, an historic act, to actually preserve and protect 
selected, certain wild and scenic rivers. The Upper St. Croix 
was one of the original selected eight rivers to be included in 
the Act and the lower 52 miles of the St. Croix River was 
proposed to be studied and then finally designated in 1972.
    Over the years, property owners have worked together to 
protect and improve the St. Croix Riverway, giving up 
improvements to their homes, businesses and the grading of land 
that would have harmed the river. It was the construction of 
the controversial Allen S. King plant, which Representative 
Bachmann showed in her photograph, that caused bridge to 
actually, caused the Lower St. Croix River to be included in 
the Riverway, in the Wild and Scenic Riverway, to protect the 
river. Northern States Power Company [NSP], then the utility, 
donated over 70 percent of the land that is now owned by the 
National Park Service in the Upper Wild and Scenic River area. 
NSP further decided not to build the second power plant there 
in due deference to its mistake.
    Let us not make another mistake of this critical magnitude 
on the St. Croix River. We have already made one. The river has 
been protected and people have been sacrificing and the 
Riverway has improved over the last 35 years.
    This project is out of sight in terms of cost and its 
scale. $700 million of new borrowed money for the states to 
construct this project at a time when we don't have enough 
money to support our current infrastructure needs within the 
State of Minnesota. The megabridge will crater the entire 
transportation corridor to Minneapolis, which will cost an 
additional $263 million in 2004 dollars to upgrade the corridor 
so that the new driving members coming across the bridge can be 
served adequately to the Twin Cities Metropolitan Area.
    The size of the bridge is out of scale and our region does 
need a lower, smaller scale bridge that will fit within the 
Riverway as it is today.
    The Wisconsin and Minnesota Department of Transportation 
did build, has built four new bridges across the Wild and 
Scenic River in existing corridors today without needing any 
special legislation.
    The last large bridge was the Prescott, Wisconsin bridge. 
It was going to be a bridge that was going to be 150 feet above 
the Riverway, approximately one mile north of the existing 
corridor. The Governors of Minnesota and Wisconsin decided that 
was not in the best interest of the Wild and Scenic River and 
therefore, that bridge was reduced. And, it is a four lane 
bridge that runs through the City of Prescott. That is a 
photograph that is an attachment to my testimony showing 
approximately, where the new bridge is and you can see where 
the proposed about a mile north in that photograph would have 
been.
    More fundamentally, the Minnesota Department of 
Transportation is not the best authority for ascertaining 
environmental aspects of the impacts to the Lower St. Croix 
River. Indeed, MinnDot has twice proposed bridges that violate 
the Wild and Scenic Rivers Act. The 1995 bridge is just within 
the same location on the Minnesota side and slight different on 
the Wisconsin side.
    Furthermore, the National Park Service, in 1990, in a 
letter indicated that if a new river crossing was required, 
this crossing, and I will just read out from the letter, as a 
quote: ``If a need for a new crossing is identified as a result 
of the above planning, we would recommend as a matter of 
general policy, such a crossing be placed in or near the 
existing transportation corridor. In the present place, this 
approximates a central corridor alternative as depicted on the 
draft document.''
    Mr. Chair, the Wild and Scenic Rivers Act was passed and 
the upper river protected under the original legislation. The 
lower part of the river was studied for inclusion and it is 
protected by Congress in 1972. Since then property owners have 
followed the rules of the Riverway Management Plan required 
under the Wild and Scenic Rivers Act. The government also must 
comply with those same rules, or the equal protection under the 
law will have no meaning. I urge the Subcommittee not to change 
the Wild and Scenic Rivers Act to allow new river bridge 
crossings where none have existed before. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Beaudet follows:]

                 Statement of David A. Beaudet, Mayor, 
     City of Oak Park Heights, Minnesota, in opposition to H.R. 850

    Mr. Chairman, Ranking Member Raul Grijalva and members of the 
subcommittee, I am David Beaudet, Mayor of the City of Oak Park Heights 
Minnesota. My city, of just under 5,000 people, is located along the 
St. Croix National Scenic Riverway exactly where this new bridge is 
proposed. I appreciate the opportunity to testify in opposition to 
House Resolution 850.
    We need a new bridge crossing the St. Croix River. But the bridge 
that is referenced in H.R. 850 is a project that is inflated and out of 
scale. It is out of scale for the taxpayers who will pay for it; it is 
out of scale for the property owners who will live with the impact of 
this giant structure; and it is out of scale for the river itself and 
the Lower St. Croix Valley.
    On October 2, 1968, the historic Wild & Scenic Rivers Act was 
signed and for the past 43 years over 200 Wild & Scenic Rivers, 
including the St. Croix are protected by this act which states ``It is 
hereby declared to be the national policy of the United States that 
certain selected rivers of the Nation which, with their immediate 
environments, possess outstanding remarkable scenic, recreational, 
geologic, fish and wildlife, historical, cultural or similar values, 
shall be preserved in free-flowing condition and their immediate 
environments shall be protected for the benefit and enjoyment of 
present and future generations.''
    The upper portion of the St. Croix River was one of the original 
eight rivers included in the Wild & Scenic Act; and the Lower 27 miles 
of the St. Croix, where this bridge is proposed, was designated Wild & 
Scenic in 1972. Over the years, property owners have worked together to 
protect and improve the St. Croix riverway giving up improvements to 
homes, building and the grading of land that would harm their River. It 
was the construction of the controversial A.S. King power plant that 
lead to ``Save the St Croix,'' a citizen's initiative, which tried to 
protect the St. Croix River from the King Plant. After permits were 
granted, these citizens worked with other groups to get the entire St. 
Croix River protected from future damaging developments. After the King 
Plant was built, everyone agreed and realized that a mistake had been 
made by not including the Lower St. Croix in the original designation. 
Let's not make that same mistake today by adding yet another oversized 
structure to this beautiful river.
    The cost of this project is out of scale and irresponsible, 
especially in this fiscal environment. The latest cost estimate for the 
bridge project is $574--$690 million. Minnesota's project share is 
about $380 million and Wisconsin's project share is between $250--$310 
million. The State of Minnesota has one of the nation's largest roadway 
systems and the Twin Cities region has one of our nation's largest 
regional highway systems. We have many, many unmet needs for repair 
now, and the list is growing. Minnesota Department of Transportation 
reports that over the next decade it has unmet needs for pavement 
repair of $1.7 billion and can only meet 85% of the need for bridge 
repair. Building a costly new highway-style St. Croix Bridge would take 
money away from pressing repair needs across the state.
    And the fiscal issues in the state of Wisconsin have been the 
subject of national news.
    With the construction of the Mega Bridge the entire transportation 
corridor would collapse requiring millions of additional transportation 
dollars to be spent on connecting roads. In a May 2001 Minnesota 
Department of Transportation Study, the trip home from North St. Paul, 
Minnesota to Oak Park Heights Minnesota, would be 45 MPH, this same 
trip after a proposed bridge is completed would be at 32MPH for a road 
posted speed of 60 to 65 MPH. The cost to upgrade the road to a freeway 
is $43.5 (2000 dollars) from the City of North St. Paul to West edge of 
the City of Oak Park Heights, add $100 million (2004 dollars) to 
construct freeway thru the City Oak Park Heights. From the City of 
North St. Paul Minnesota to Minneapolis Minnesota an upgrade of the 
freeway system is required with an additional lane of traffic in each 
direction with a cost estimate of $120 million (2002 Dollars).
    So the cost of the bridge itself is just the beginning.
    The size of this bridge is out of scale with the need our region 
has now, and in the future, to move people to and from their jobs. And 
we have looked at smaller options in the past that would provide an 
adequate crossing and at the same time be in line with the Wild & 
Scenic River.
    The Wisconsin and Minnesota Departments of Transportation 
recommendation for a high level, (150) feet above the St. Croix River 
(bluff to bluff bridge) and approximately 1 mile upstream from the 
existing bridge, was proposed as the preferred alternative, B-1, 
despite the fact that this alternative would cost $20 million more than 
a replacement bridge next to the existing river bridge. The Riverway 
Managing Partners including the National Park Service, the state of 
Minnesota, Wisconsin Department of Natural Resources and others, 
objected to the plan and indicated the proposed bridge would have to 
comply with the Wild & Scenic Rivers Act. Governors Anthony Earl of 
Wisconsin and Rudy Perpich of Minnesota announced that the states had 
selected a location for a replacement bridge in the corridor adjacent 
to the existing river crossing. The press release noted, ``primary 
concerns include preserving the integrity of the St. Croix River Valley 
as a natural scenic waterway and the high cost of Corridor C.'' The 
April FEIS noted the reasons why the preferred crossing was not chosen 
``were perceived as (1) required too many agricultural acres; (2) 
causing too many farm severances; (3) being detrimental to the 
aesthetic qualities of the federal designated recreational segment of 
the Wild and Scenic St. Croix River; or (4) having bridge construction 
cost that were too high.'' The crossing has been open for more than 20 
years serving the needs of the transportation system and the City of 
Prescott Wisconsin.
    Now that the National Park Service has been able to reevaluate this 
massive bridge project under a new administration, the agency has 
determined that alternative B-1 would irreparably harm the Lower St. 
Croix's scenic and recreational values.
    More fundamentally, Minnesota Department of Transportation is not 
the best authority for ascertaining environmental impacts to the Lower 
St. Croix. Indeed, MnDOT has twice proposed bridges that would violate 
the Wild and Scenic Rivers Act. Because the National Park Service is 
the designated steward of the Riverway, we should place far much weight 
on their judgments. And the NPS has found that construction of a 
massive bridge in the B-1 corridor would violate the Wild and Scenic 
Rivers Act.
    Furthermore, the National Park Service and other Riverway agencies 
in a DEIS comment letter dated July 10, 1990 stated, '' If a need for a 
new crossing is identified as a result of the above planning, we would 
recommend, as a matter of general policy, that such a crossing be 
placed in or near an existing transportation corridor. In the present 
case, this approximates the Central Corridor Alternative as depicted in 
the draft document.''
    This Central Corridor Alternative is the most cost effective choice 
as indicated in St. Croix Crossing, Benefit-Cost analysis Memorandum, 
dated May 5, 2004. The Central Corridor Alternative would be 20% more 
cost effective than the route selected. The St. Croix Riverway Agencies 
and Minnesota Taxpayers League President Phil Krinkie agree this 
proposed project is not in the taxpayer's best interest.
    Building a bridge in this corridor would also be consistent with 
the Management Plan for the Riverway, which states that (a) new bridges 
should be located within or adjacent to existing transportation 
corridors, and (b) that any new bridge ``must be of a scale and 
character that minimizes impact to the values for which the [Lower St. 
Croix] was designated under the National Wild and Scenic Rivers Act 
(scenic, recreational, geologic).''
    This Mega Bridge project would be detrimental to the people of The 
City of Oak Park Heights. In a study commissioned by the City in 2004, 
the city property tax base would be reduced by 17% and property owners 
viewing the St. Croix River would have home values reduced by up to 
30%. This is equivalent to the Government taking 30% of the value of 
our homes, and this bill paves the way for just that.
    The start date of the proposed project in 2013 is 100 years after 
Congressional action allowed the building of the Hetch Hetchy Dam in 
Yosemite National Park. The bridge project over the St. Croix River, if 
approved by Congressional action, will turn out to be the Hetch Hetchy 
of the Wild and Scenic Rivers System, potentially setting the stage to 
damage all Wild & Scenic Rivers. Mister Chairman, I invite you and the 
members of the committee to visit and view the St. Croix River from the 
Scenic Overlook in Oak Park Heights before passing the Resolution 850 
and before the committee approves an exemption of bridges from the Wild 
and Scenic Rivers Act.
    When the Wild and Scenic Rivers Act was passed and the upper St. 
Croix River protected under the original legislation, the lower part of 
the river was to be studied for inclusion. In 1972 Congressional action 
added the lower St. Croix River into the Wild & Scenic River System. 
Since then property owners have followed the rules in the Riverway 
Management Plan required under the Wild & Scenic Rivers Act. The 
Government must also comply with the plan and the Federal Government or 
equal protection under the law will have no meaning. I urge the 
Subcommittee not to change the Wild & Scenic Rivers Act to allow new 
river bridge crossings where none existed before.
                                 ______
                                 
    Mr. Bishop. Thank you. We will now hear from Mayor Ken 
Harycki--I hope I put the emphasis in the right place on that--
from Stillwater, Minnesota. You are recognized for five 
minutes. Pull the mike right into your face so we can actually 
here it.

             STATEMENT OF HON. KEN HARYCKI, MAYOR, 
                 CITY OF STILLWATER, MINNESOTA

    Mr. Harycki. Thank you, Chairman Bishop and Ranking Member 
Grijalva and members of the Committee. I am Ken Harycki, the 
Mayor of Stillwater, Co-Chairman of the Coalition for the St. 
Croix River Crossing, a community organization formed to 
advocate for the new bridge. I also brought along pieces of our 
bridge today, some cement and some steel that came off of it.
    My home town, Stillwater, is a beautiful and historic city 
on the St. Croix River. It is protected by the National 
Register of Historic Places. The counties on both sides of the 
river are parts of the Minneapolis-St. Paul Metropolitan Area. 
In 1931, a lift bridge was built across the river as our 
communities grew. Through the 1940s and 1950s, the bridge was 
able to handle the traffic. But by the 1960s it was apparent 
that the traffic was exceeding the design.
    Now, in 2011, our bridge is dangerously outdated. The lift 
bridge was designed to handle 11,000 cars per day. But that has 
grown to 18,400 vehicles daily. In the summer, traffic can peak 
to 25,000 vehicles. The road to the bridge has an accident rate 
double that of the state average. Many years and too much 
traffic have taken a toll on the existing bridge. Maintenance 
and flooding force traffic to divert elsewhere, sending tens of 
thousands of cars elsewhere throughout the region.
    This bridge is functionally obsolete, factually critical, 
meaning that if something fails on the bridge, it would 
collapse. The bridge's sufficiency rating 33, is lower than 
that of the I-35W bridge before it collapsed in 2007, killing 
13 and injuring 144. As you can see from our handout, it has 
been difficult to find the right plan that balances three very 
important laws--the Wild and Scenic Rivers Act, the 
Transportation Act of 1996 and the National Historic 
Preservation Act.
    The St. Croix River is an important natural resource and is 
recognized and protected as a Wild and Scenic Rivers Act. Area 
residents want to continue to protect the river from over-
development and to protect historic sites throughout the 
region. But we still need a safe and reliable crossing.
    The Udall Institute brought together 27 different 
stakeholders organizations to find a compromise, many years 
ago. The stakeholder group staffed by a team of engineering, 
environmental and design professionals worked together to study 
a multitude of options, designs and features. These 
organizations represented the community, state, Federal 
regulatory agencies, environmental organizations, historic 
preservation, economic development interests and local 
government. The City of Stillwater, Oak Park Heights and 
National Park Service were a very important part of this 
process. This diverse group looked at every possible idea and 
location of a new crossing. We even looked at tunneling under 
the river. Your handout includes a map of a dozen routes that 
were reviewed. The result was a plan that balances the three 
very important laws. All but one of the groups involved in the 
process supported the plan and we received a record decision 
that validated the work we did.
    Our plan and the communities vision are for more than just 
a new bridge. We will be using Federal and state highway funds 
to make significant park improvements and environmental 
remediation as part of the project. We will preserve the 
historic bridge, converting it into a key element of a new 
bicycle and pedestrian loop trail, giving people new and 
exciting ways to access and enjoy the river valley and this 
national park. Bluff lands where present day roadway is located 
will be restored. The pilings of the old coal barge terminal 
will be removed. The new bridge will decrease the amount of 
phosphorus pollution entering the river by 20 percent, a number 
one goal of the St. Croix River Basin team.
    The new crossing will also reduce dangerous levels of 
traffic and automotive pollution from our small, historic 
downtown.
    And finally, the bridge design and location. As you can see 
from our posters, the bridge is gorgeous. The stakeholders 
wanted a signature bridge that is worth of the St. Croix 
valley. Also note the location. We think it is appropriate to 
build the new crossing within the industrial part of the 
Riverway, next to a power plant, a sewage treatment plant and a 
marina. This portion of the river is assuredly not wild and not 
historic, like downtown Stillwater. It is the correct location 
for the crossing. The National Park Service has determined that 
the Wild and Scenic Rivers Act does not allow them to grant a 
permit for any new construction in a designated Riverway. This 
is important. The National Park Service has not just blocked 
this bridge, has rejected any new construction in a Wild and 
Scenic Riverway. Only Congress is allowed to review and approve 
and review new construction. The longer we wait, the more 
expensive the solution will get and the greater risk that 
something tragic could happen.
    We are especially pleased to say that throughout the 
decades, we have received bipartisan support for this project. 
Now is no different with the Governors in Minnesota and 
Wisconsin and your Congressional colleagues, Representatives 
Bachmann and Kline supporting this project. I assure you the 
people who live and work in the St. Croix Valley have done 
everything possible to create the best plan for the entire 
region. We care deeply about the river that unites our 
communities. It is now up to you to take action and help us 
resolve this very important matter. I thank you for your time, 
and again, ask for your help and support.
    [The prepared statement of Mr. Harycki follows:]

            Statement of The Honorable Ken Harycki, Mayor, 
                   Stillwater, Minnesota, on H.R. 850

    Chairman Bishop, ranking member Grijalva and members of the 
committee.
    My name is Ken Harycki. I am the Mayor of Stillwater, Minnesota, 
and also co-chairman of the Coalition for the St. Croix River Crossing, 
a two-state regional community organization that has been formed to 
advocate for the new bridge project.
    My hometown is a beautiful and historic city located on the St. 
Croix River, which creates the border between Minnesota and Wisconsin. 
Our downtown is protected by the National Register of Historic Places, 
and the counties on both sides of the river are part of the 
Minneapolis-St. Paul metropolitan area.
    Since even before 1848, when Wisconsin was admitted by Congress 
into the Union, communities on both sides of the river have been 
connected by a river crossing at Stillwater.
    In 1931, 80 years ago, a lift bridge was built across the river as 
our communities grew. Through the 1940's and 50's the bridge was able 
to handle the demands of people who needed to cross between our 
communities, but in the 1960's it became apparent that demand was 
exceeding this design.
    Now, in 2011 our bridge is dangerously outdated.
    The lift bridge was designed to handle a capacity of 11,000 cars 
per day, but today it is overburdened by an average of 18,400 vehicles 
daily. In the summer, traffic can jump to over 25,000 cars a day.
    The road that leads up to the bridge has a traffic accident rate 
that is nearly twice the state average for comparable roadways.
    Cars idle for hours on both sides waiting to cross the bridge, 
creating pollution and making it challenging for residents and visitors 
to navigate Stillwater's historic downtown.
    Too many years and too much traffic have taken a toll on the 
bridge. Flooding and maintenance force the bridge to close on a regular 
basis, sending tens of thousands of cars and trucks elsewhere.
    This bridge is a functionally-obsolete, fracture-critical 
structure, meaning that if something fails on the bridge, it would 
collapse. The bridge's sufficiency rating of 33 is lower than that of 
the I-35W Bridge before it collapsed in 2007, killing 13 and injuring 
144 people.
    As you can see from the handout that we've provided to the 
committee, it has been difficult to find the right plan that is 
consistent with three important federal laws.
    <bullet>  Section 7 of the Wild and Scenic Rivers Act;
    <bullet>  Section 4 of the Transportation Act of 1996; and
    <bullet>  Section 106 of the National Historic Preservation Act.
    In particular, the St. Croix River is an important natural resource 
that is recognized and protected by the Wild and Scenic Rivers Act. 
Area residents want to continue to protect the river from over-
development and protect historic sites throughout the region. But we 
still need a safe, reliable crossing.
    The project that we are asking the Congress to permit to go forward 
was developed through an unprecedented environmental mediation process 
that was administered by the Udall Institute for Environmental Conflict 
Resolution.
    To make sure every possible idea for a new bridge was considered, 
the Udall Institute brought together 27 different stakeholder 
organizations. They are listed in your materials, and also on the 
poster board behind us. The group met in Stillwater City Hall at least 
monthly for three years.
    The Stakeholder Group, staffed by a team of engineering, 
environmental and design professionals, worked together to study a 
multitude of options, designs and features. These organizations 
represented the community, state and federal regulatory agencies, 
environmental organizations, historic preservation interests, economic 
development interests, and local governments from both sides of the 
river.
    The City of Stillwater and our sister city, the City of Oak Park 
Heights were important parts of this exhaustive planning process. And 
so was the National Park Service.
    This diverse group looked at every possible idea and location for a 
new crossing. We even looked at tunneling under the river in order to 
protect the scenic views. Your handout includes a map of the dozen or 
so routes that were reviewed as part of the Stakeholder process.
    The Stakeholders considered ways to protect the river, to make this 
national resource more accessible to people, and respect the history of 
Stillwater and the region- all while making sure the metro area has a 
transportation resource that is capable of meeting current and future 
needs.
    The result was a plan that balances the three laws. All but one of 
the groups involved supported the plan. We received a Record of 
Decision by the Federal Highway Administration that validated the work 
we did and the final result.
    Our plan and the community's vision are for more than just a new 
bridge. We'll be using federal and state highway funds to make 
significant park improvements and environmental remediation as part of 
the project.
    The project will preserve the historic bridge by converting it into 
the key element of a new bicycle and pedestrian loop trail along and 
above the river, giving people a new and exciting way to access and 
enjoy the river valley and this national park.
    Bluff lands on both sides of the river where the present-day 
roadway is located will be restored.
    The pilings and the riverfront for the old coal barge terminal in 
front of the power plant will be removed.
    The new bridge will also decrease the amount of phosphorous 
pollution entering the river by 20 percent--the number one goal of the 
St. Croix River Basin Team. The new crossing will also reduce the 
dangerous levels of traffic and automotive pollution from our small, 
historic downtown area.
    And finally, the bridge design and location. As you can see from 
our posters, the bridge is gorgeous. It's a modified cable stay design 
that has been built in only two other locations in North America. The 
Stakeholders wanted a ``signature bridge'' that is worthy of the St. 
Croix Valley. We believe it will become as iconic as the Lift Bridge.
    Also, note the location. We think it's appropriate to build the new 
crossing within the industrial part of the riverway, next to a power 
plant, a sewage treatment plant and a marina. This portion of the river 
is assuredly not wild, and not historic like downtown Stillwater. It is 
the correct location for the crossing.
    The National Park Service has determined that the Wild and Scenic 
Rivers Act does not allow them to grant a permit for any new 
construction in a designated riverway. This is an important point: the 
NPS has not just blocked this bridge; it has rejected any new 
construction in a Wild and Scenic Riverway. Only Congress is allowed to 
review and approve new construction.
    The longer we wait, the more expensive the solution will get and 
the greater the risk that something tragic could happen. Living in 
Minnesota, after the 35W bridge collapse, we are especially sensitive 
about our bridges.
    It's worth noting that support for the project is not universal. 
Like all large public projects, there will always be opponents. But 
make no mistake, the public strongly supports this new bridge. So do a 
majority of elected local officials in Stillwater and Oak Park Heights 
in Minnesota, and our counterparts in Wisconsin overwhelmingly support 
this project. All of our state legislators representing us on both 
sides of the river are in support for this project.
    And we are especially pleased to say that throughout the decades 
this support has been bi-partisan. Now is no different, with the 
Governors in Minnesota and Wisconsin, and your Congressional colleagues 
Representatives Bachmann and Kind supporting our project.
    I assure you that the people who live and work in the St. Croix 
River Valley have done everything possible to create the best plan for 
the entire region. We care deeply about the river that unites our 
communities.
    Together, with the help of federal and state officials, we have 
created a project that
    <bullet>  Meets current and future traffic demands
    <bullet>  Respects the river and its scenic beauty
    <bullet>  Protects the historic lift bridge and historic sites 
throughout the region.
    It's now up to you to take action and help us resolve this matter. 
I thank you for your time and again ask for your help and support.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Geissler, President of the 
Lakeview Memorial Hospital in Stillwater.

            STATEMENT OF CURT GEISSLER, PRESIDENT, 
       LAKEVIEW MEMORIAL HOSPITAL, STILLWATER, MINNESOTA

    Mr. Geissler. Thank you, Chairman Bishop, Ranking Member 
Grijalva and members of the Committee. My name is Curt Geissler 
and I am the President of Lakeview Hospital in Stillwater and I 
am here today on behalf of our hospital and five clinics that 
operate in both Minnesota and Wisconsin. I also believe I speak 
on behalf of the majority of our patients, our employees and 
employers in both Minnesota and Wisconsin who badly need a new 
crossing to be built.
    I have also served on the Greater Stillwater Area Chamber 
of Commerce Board of Directors for seven years, three of them 
as the Board Chair. And, finally, like the Mayor I am also a 
board member of the bi-state Coalition for the St. Croix River 
Crossing.
    Lakeview Hospital was founded in 1880 and has always served 
the medical needs of people on both sides of the river. We are 
the only level-three trauma center serving the region. In 
addition to our Minnesota communities, our primary service area 
includes 30 miles into western Wisconsin. Roughly one-third of 
our patients come from Wisconsin, as do about one-third of our 
employees.
    In round numbers, each year approximately 20,000 hospital 
patients and 70,000 clinic patients are dependent on the river 
bridge crossing. Additionally, about 350 of our doctors, nurses 
and other health professionals depend on the bridge to get back 
and forth to work.
    Our ambulances must cross the bridge daily to respond to 
and provide care in emergency medical situations. We are the 
only advanced life-support ambulance provider serving western 
Wisconsin. The current bridge causes significant delays to 
provide field and hospital care to patients.
    First of all, because the bridge operates every 30 minutes 
during peak summer areas, crossing delays are inevitable. Even 
though the bridge operator can be contacted to lower the 
bridge, the traffic backups that occur when the bridge is up 
cannot be quickly mitigated. During daily rush hours and in 
summer months, traffic backups can be over a mile long. Because 
the 1931 bridge was built without shoulders, our ambulances 
cannot cross the bridge any faster than traffic can be cleared.
    To emphasize just how narrow the bridge is, we routinely 
break off side view mirrors off of our ambulance and other 
vehicles attempting to cross the bridge. So essentially, we 
either have to wait our turn in line on the bridge or travel 25 
miles to reach a location that is visible from Stillwater 
across the river.
    Some opponents of this project have suggested that a new 
bridge is not necessary because the round-trip to the 
Interstate 94 bridge in Hudson is only 25 miles. Even ignoring 
the deterioration in the safety of the 80-year old lift bridge, 
I can tell you that a new crossing is desperately needed. For 
people in critical condition, minutes count. If this was your 
loved one, you would not want timely medical care to be 
dependent upon a lift bridge schedule or the amount of traffic 
on a particular day or time. Adding 25 miles to an ambulance 
ride is unacceptable.
    When we know that the bridge will be closed because of 
spring flooding or repair work, or that traffic will be snarled 
because of community festivals and events, we pre-position an 
ambulance in Wisconsin. That allows us to staff only one 
ambulance to serve western Wisconsin and prevents patients from 
being transferred to a hospital with a higher level of care. 
Only lower-level, critical care access hospitals exist in 
western Wisconsin.
    As a member of the Greater Stillwater Chamber of Commerce, 
I hear a great deal about the challenges business people have 
in getting the Wisconsin employees to work. Bridge traffic and 
frequent closures cause inefficiencies and delays that increase 
the cost of doing business on both sides of the river and is a 
real impediment to job creation. A long term bridge failure, 
one we ultimately will face in a matter of time, will have a 
negative economic impact, not only on our hospital and clinical 
care, but on the entire Twin Cities Metropolitan Area.
    This is a critical point. This section of the river is in 
an urban area. An urban area with a population of 3.2 million 
people. Washington County, where Stillwater is located, has a 
population of 234,000 people. We are a vibrant and growing area 
and our transportation system must reflect that. This bridge is 
on the national highway system, the corridor is a major route 
to the east for a metro area. As I said with over 3 million 
residents.
    As well as the economic impacts, this has Homeland Security 
implications. When the lift bridge closes, the 18,000 cars per 
day currently crossing it shift primarily to the Hudson bridge 
for a total of 32,000 more cars each day. The Hudson bridge is 
the only major bridge crossing in our region and this level of 
traffic is nearly 30 percent higher than what is presently 
forecast. There would be massive traffic problems on I-94 
leading into and out of the St. Paul/Minneapolis area.
    While Lakeview Hospital and the Stillwater Clinic stand 
ready to care for the sick and injured, we cannot stand still 
and wait for a fractured, critical, functionally obsolete 
bridge to deteriorate further. A bridge failure that causes 
preventable injury or death would weigh heavily on our 
conscience.
    In closing, I want to acknowledge that I have spoken a lot 
more about traffic than what the Subcommittee might be used to 
hearing, but it is important that you understand the 
substantial impacts of delaying action any further. We have had 
a river crossing in Stillwater since before our statehood. Our 
communities have planned and prepared and waited over 50 years 
for this bridge. The stakeholder group has created a project 
that balances pressing transportation needs, historic 
preservation and environmental protection. We only need 
Congressional approval for it to move ahead. We urge you not to 
delay the replacement of the bridge any longer. Please act this 
year to permit the St. Croix Crossing Project to go forward. 
Thank you for your time.
    [The prepared statements of Mr. Geissler follow:]

 Statement of Curt Geissler, President, Lakeview Hospital, on H.R. 850

    Chairman Bishop, Ranking member Grijalva and members, my name is 
Curt Geissler. I'm the President of Lakeview Hospital in Stillwater. 
I'm here today on behalf of our hospital and five clinics that operate 
in both Minnesota and Wisconsin. I also believe I speak on behalf of 
the majority of our patients, employees and employers in both Minnesota 
and Wisconsin who badly need a new crossing to be built.
    I have also served on the Greater Stillwater Area Chamber of 
Commerce Board of Directors for 7 years, three of them as Board Chair, 
so I believe I can represent many employer positions in our economic 
region.
    And finally, like the Mayor, I am also a board member of the bi-
state Coalition for the St. Croix River Crossing.
    Lakeview Hospital was founded in 1880, and has always served the 
medical needs of people on both sides of the river. Ironically the 
original hospital was built to provide health care for the lumber jacks 
working on the St. Croix River, the same river that needs our attention 
today. We are the eastern most hospital in the St. Paul/Minneapolis 
Metropolitan Area, and the only level 3 trauma center serving the 
region. We are proud of the high quality of care and the significant 
level of medical service we give to our Minnesota and Wisconsin 
communities.
    In addition to our Minnesota communities, our primary service area 
includes the Wisconsin communities of Somerset, and New Richmond, 30 
miles into Western Wisconsin across the St. Croix River. Roughly one-
third of our patients come from Wisconsin, as do about one-third of our 
employees.
    In raw numbers, each year approximately 20,000 hospital patients 
and 70,000 clinic patients are dependent on the river bridge crossing. 
Additionally, about 350 of our doctors, nurses and other health 
professionals depend on the bridge to get back and forth to work.
    Our ambulances must cross the bridge daily to respond to and 
provide care in emergency medical situations. We are the only advanced 
life support ambulance provider serving the geographical area in 
western Wisconsin. The current bridge causes significant delays to 
provide field and hospital care to patients.
    First, because the lift bridge operates every 30 minutes during 
peak summer areas, crossing delays are inevitable. Even though the 
bridge operator can be contacted to lower the bridge, the traffic 
backups that occur when the bridge is up cannot be quickly mitigated.
    In summer months, traffic backups can be over a mile long for 
people waiting to cross the bridge in either direction. Because the 
1931 bridge was built without shoulders, our ambulances cannot cross 
the bridge any faster than traffic can be cleared. We have to either 
wait our turn in line on the bridge, or travel the 25 miles through 
Hudson to reach a location that is visible from Stillwater across the 
river.
    Some opponents of this project have suggested that a new bridge 
isn't necessary, because the round-trip to the Interstate 94 Bridge 
located in Hudson is only about 25 miles. Even ignoring the 
deteriorating state and safety of the 80 year old lift bridge, I can 
tell you that a new crossing is desperately needed.
    For people with critical injuries or in critical conditions, 
minutes count. If this was your or my loved one, you would not want 
timely medical care to be dependent upon a lift bridge schedule, or the 
amount of traffic on a particular time or day. Adding 25 miles onto an 
ambulance ride is unacceptable.
    When we know that the bridge will be closed because of spring 
flooding or repair work, or that traffic will be snarled because of 
community festivals and events, we pre-position an ambulance in 
Wisconsin. This is less than ideal and causes operational challenges. 
Also, it allows only one ambulance to serve Western Wisconsin and also 
prevents patients from being transferred to a hospital with higher 
level of care. Only lower-level critical access hospitals exist in 
western Wisconsin.
    As I mentioned, our hospital is a member of the Greater Stillwater 
Chamber of Commerce, and so we hear a great deal about the challenges 
that businesspeople have in getting their Wisconsin employees to work. 
Bridge traffic and frequent closures cause inefficiencies and delays 
that increase the cost of doing business on both sides of the river, 
and is a real impediment to job creation.
    A long-term bridge failure, one we ultimately will face in a matter 
of time, will have a negative economic impact not only on our hospital 
and clinical care, but on the entire Twin Cities Metropolitan economy. 
This is a crucial point: this section of the river is in an urban area, 
an urban area with a population of 3.2 million. Washington County, 
where Stillwater is located has a population of 234,000. We are vibrant 
and growing and our transportation system must reflect that.
    This bridge is on the National Highway System, the corridor is a 
major route to the east for a metro as I said with over 3 million 
residents. As well as the economic impacts, this has homeland security 
implications.
    But when the Lift Bridge closes, the 18,000 cars per day currently 
crossing it will shift primarily to the Hudson Bridge--for a total of 
32,000 more cars each day. The Hudson Bridge is the only major bridge 
crossing in our region, and this level of traffic is nearly 30 percent 
higher than what is presently forecast. There would be massive traffic 
problems on I-94 leading in and out of St. Paul/Minneapolis.
    While Lakeview Hospital and the Stillwater Clinics stand ready to 
care for the sick and injured, we cannot stand still and wait for a 
fracture-critical, functionally obsolete bridge to deteriorate further. 
A bridge failure that causes preventable injury or death would weigh 
heavily on our conscience.
    In closing, I want to acknowledge that I've spoken a lot more about 
traffic than what this subcommittee might be used to hearing. But it is 
important that you understand the substantial impacts of delaying 
action any further.
    We have had a river crossing in Stillwater since before statehood. 
Our communities have planned and prepared and waited over 50 years for 
this bridge. The Stakeholder Group has created a project that balances 
pressing transportation needs, historic preservation and environmental 
protection. We only need Congressional approval for it to move ahead.
    We urge you to not delay the replacement of this bridge any longer. 
Please act this year to permit the St. Croix Crossing project to go 
forward.
                                 ______
                                 
    Mr. Bishop. I thank all the witnesses for your testimony. 
We will now turn to questions. We will start with Mr. Grijalva, 
unless he wants the other Members to go first on his side.
    Mr. Grijalva. Yes, if I may. Mayor Beaudet, Mr. Geissler 
just argues that public health and safety are endangered by the 
current bridge situation. Can you talk about those concerns and 
do those concerns about public health and safety exist, to be 
quite frank?
    Mr. Beaudet. It is, I think that the Hudson Hospital and 
the New Richmond Hospital would be jumping for joy that perhaps 
maybe they will be able to serve the township of St. George 
Township, which is the area that does not have ambulance 
service provided by either Hudson or New Richmond. Those two 
hospitals serve area much closer to the population involved. 
They also have advanced life support ambulances. But in 
Wisconsin law there is a little quirk. That is if you are 
affiliated with a hospital in Wisconsin, you have to pay a 
little property tax to support the ambulance service. 
Obviously, Lakeview Hospital provides that free to St. Joseph 
Township. And so, that is why no town board, it is up to the 
town board whether they are going to have an ambulance, if they 
are. And they are never going to jeopardize their residents 
health care and safety based on the fact of the existing bridge 
when they have two other hospital choices that can provide the 
same level of service.
    If there is truly an automobile accident, all three 
hospitals air lift the person to Regions Hospital in St. Paul. 
That is where all the advanced trauma care is.
    Mr. Grijalva. What is the current cost estimate for the 
project that we are----
    Mr. Beaudet. The current cost estimate of the project is 
nearly $700 million of borrowed money split by the states of 
Minnesota and Wisconsin. And I know that Congresswoman Bachmann 
urged you rapid approval of this. There is money to start this 
project until the year 2013, at the earliest. And Governor 
Dayton has not committed the State of Minnesota's borrowing 
authority to actually do the project, even in 2013. So there is 
still some question there. He supports the project, probably 
looks at it more as a jobs project. And if Congresswoman 
Bachmann would like to earmark the money, I am sure he would 
say he would take it. But, as I said, 2013 would be the 
potential start date. And it is borrowed money.
    Mr. Grijalva. Mr. Whitesell. The legislation includes the, 
does it include that so-called stakeholder mitigation 
provisions and why are those provisions so important----
    Mr. Whitesell. No.
    Mr. Grijalva. We were presented with the stakeholder group 
and I am certain they made recommendations. What happens to 
those provisions?
    Mr. Whitesell. As written in H.R. 850, there is no mention 
of those mitigation measures. So, unless Congress were to add 
those, they would not be part of this bill.
    Mr. Grijalva. So, but that has been one of the bigger 
points of selling the project, is that you went through this 
tremendous stakeholder, with great provisions about mitigation, 
etc., etc., etc., and they are not part of the legislation.
    Mr. Whitesell. Correct.
    Mr. Grijalva. You reference a provision in Wild and Scenic 
Rivers in your testimony that allows a Federal agency to 
instigate Congressional consideration of a project like this 
one. Can explain, can you expand on that process and your 
understanding of how that would work?
    Mr. Whitesell. Certainly. The law we believe is very clear 
on this matter. The Wild and Scenic Rivers Act is very clear. 
And that is that the sponsoring Federal agency, in particular 
case the U.S. Department of Transportation along with its local 
sponsors in Minnesota and Wisconsin, have the, we provide an 
evaluation of the Wild and Scenic Rivers Act as to whether 
there are impacts to the Act as a result of the project that is 
being proposed. The project proponent, once they have that 
evaluation, and if it is negative, has the ability to come back 
before Congress and ask for an exception to the Wild and Scenic 
Rivers Act. That has not happened as far as I know.
    Mr. Grijalva. So the Department of Transportation could 
come to Congress, do this bridge. We will pay for it, and you 
don't have to go through the process of setting a precedent 
under the Wild and Scenic Rivers Act?
    Mr. Whitesell. That is correct.
    Mr. Grijalva. Thank you.
    Mr. Bishop. Representative Kildee?
    Mr. Kildee. To follow up on a question asked by my 
colleague, Mr. Whitesell, are there objective criteria for the 
lessening of negative effects on the wild and scenic 
characteristics on Wild and Scenic designated rivers, such as 
the St. Croix. Are there objective criteria to measure the 
negative effects on----
    Mr. Whitesell. Congressman, if I might, I just want to make 
sure I understand the correctly. Are you asking within the Act 
itself or in terms of our evaluation that the Park Service 
does?
    Mr. Kildee. The general bill on the question of Wild and 
Scenic Rivers?
    Mr. Whitesell. Right.
    Mr. Kildee. I was to sponsor a bill for Michigan. It set 
aside 500 miles of designation of Wild and Scenic Rivers and 
500 miles of study for that. In that organic bill, are you 
required to look at certain criteria to see how much it may 
affect the characteristics of that river that earn it the right 
to be designated as wild and scenic?
    Mr. Whitesell. Right, as part of the designation of the 
wild and scenic river, there are outstanding remarkable values 
that are noted, of which, in the case of the Lower St. Croix 
River, it is the scenic value that is, is as a designated 
outstanding remarkable value. And so it is in evaluation of 
that scenic character that the National Park Service made its 
determination that there was a direct and adverse effect as a 
result of the proposed, if the bridge as proposed were to be 
constructed. As part of that, as well, there was this whole 
consideration of mitigation measures which came about as a 
result of the stakeholders group that others refer to. And 
those mitigation measures do not mitigate the direct and 
adverse impact to the scenic values. In fact, they are of value 
because they are, they provide mitigation to Section 4f of the 
Federal Transportation Act, which looks to minimize the impacts 
on lands and waters that would be impacted by this particular 
project.
    Mr. Kildee. So they don't reach the level that you would 
ordinarily require under the organic act and your authority?
    Mr. Whitesell. Right.
    Mr. Kildee. In other words, they fall short.
    Mr. Whitesell. This bridge falls short of meeting, of being 
exempt or to be. I am sorry. It falls short of our being able 
to say there is not a direct and adverse impact.
    Mr. Kildee. And that was why, when we passed the Wild and 
Scenic Rivers Act we really wanted to make it important that 
you look at those mitigating factors and sometimes, as in this 
instance, there was input from stakeholders or people around 
there, but they do not quite reach the level that you would 
want for mitigation.
    Mr. Whitesell. We don't believe there is any way for 
mitigation measure to be established that would mitigate the 
direct and adverse impact of this particular bridge design. 
Every proposal needs to be evaluated on the merits of the 
individual design as opposed to the entirety of the crossing.
    Mr. Kildee. So this would not then meet the requirements we 
really put in the Wild and Scenic Rivers Act to make sure we 
did not adversely affect those qualities that give it the right 
to be designated as Wild and Scenic.
    Mr. Whitesell. That is our belief, yes.
    Mr. Kildee. We are short of that then.
    Mr. Whitesell. You are short, that is correct.
    Mr. Kildee. I appreciate you answering that. May I address 
the Mayor. My mayor is in town today, too, so this is Mayor's 
day, so I welcome you here. And I have great admiration for 
mayors. At least we can say blame the other 434 Members of 
Congress when something goes wrong, but the buck stops at your 
desk there. Congresswoman Bachmann mentioned that there were 
outside special interests. What were they and how far outside 
were they, the special interests that----
    Mr. Harycki. They were 27 members on the stakeholders group 
and of them there was one that did not sign off on the approval 
to build a $633 million dollar bridge, which includes $110 
million of contingency, and so I believe she was referring to 
the Sierra Club that did not, that was the one dissenting 
member of the stakeholders group and has also filed numerous 
lawsuits delaying it and forcing us to this position today 
where we literally need an Act of Congress to go forward. In 
fact, our own Governor Dayton won't commit to the project until 
he has the Act of Congress and in conversations with him, he 
said once we have that Act of Congress, we are there, we are 
funded, we are fully funded at the State of Minnesota and 
Wisconsin is mostly funded and ready to go.
    Mr. Kildee. Thank you very much and thank you Mr. Chairman.
    Mr. Bishop. We can have some other rounds if you want to 
stay. The gentleman from California?
    Mr. Garamendi. Thank you, Mr. Chairman. I actually have two 
sets of questions. There are existing transportation corridors 
in which bridges and other transportation facilities could be 
built. Is that correct under the existing law?
    Mr. Whitesell. Are you referring specifically to the Lower 
St. Croix? I don't know, Congressman. I could find out and get 
back to you.
    Mr. Garamendi. I thought the testimony as I was trying to 
interpret it, that that is the case. If that is the case, then 
why are the, is the new bridge not in an existing corridor? I 
will take either of the two mayors.
    Mr. Beaudet. That has been the difficulty with this entire 
process, that a bridge would be in the existing corridor would 
cost much less dollars. And for reasons not clear to anyone, at 
least from the Park Service river protection viewpoint it has 
been a mystery as to why, what was delineated in 1990 was never 
really seriously reviewed. And it would have, there would be, 
it depends on how you want to rank these. The Transportation 
Agency advocates, they want a large inter-regional corridor 
design which does not allow it to have a design like would be 
in the City of Prescott which is an existing bridge. And there 
are several other corridors. The highway, Interstate 94 bridge 
is only five miles away from the proposed existing bridge 
location that is on the Minnesota side. And there are other 
corridors. So Interstate 94, Prescott, which is another, and of 
course there are pipelines and power lines that do cross the 
river, those have been enlarged over the time when the Wild and 
Scenic Rives Act----
    Mr. Garamendi. Good. Mayor?
    Mr. Harycki. Yes, if I could address that. There was an, 
like I said, we had studied pretty close to a dozen possible 
routes, including using the existing corridor. And the problem 
we have is that the existing bridge is two lanes on each side 
of the river, you have four lanes of traffic. And we got to the 
point of why build a bottleneck? Why take four lanes, reduce it 
down to two and then expand it up to four? It would not 
accomplish anything. In fact, the preferred, the Sierra Club's 
preferred alternative, I have a picture of it that I could 
circulate around, is to build a very much longer bridge, that 
would have a very drastic and severe impact on the view from 
downtown Stillwater. In fact, when we showed it to Governor 
Dayton, he said well, why would anyone want to build this, this 
is disingenuous. It is so ugly. And basically they want to 
stretch, from downtown Stillwater right now we have very green 
backdrop, it is a very scenic area. And they want to take and 
build a 40-foot high bridge, roughly about a mile in length 
across a diagonal of the river so that if you are in the 
Stillwater area, all you would see is bridges. And that is why 
we are looking at it and saying the best solution is to put it 
up against the power plant, close to the Mayor's house, you 
know up against the sewage treatment plant.
    Mr. Garamendi. So the real question here is whose backward 
is going to have a visual impairment?
    Mr. Harycki. Somewhat, and in fact that is why the original 
alignment of Highway 36 was chosen, when they put it in, it was 
to line up with the bridge.
    Mr. Garamendi. My district is a long way from there and I 
am not going to get into your local tit for tats, but I was 
curious why the existing corridors are not being used. And, 
frankly, the answers are insufficient. But, it is not my turf. 
What is my turf is the Wild and Scenic Rivers Act, and the Park 
Service has suggested that if this bill is to move forward that 
it be significantly modified so that this is not a project that 
is allowed under the Act but rather an exception to the Act. 
And second that the mitigation measures that are apparently 
connected as a result of the Department of Transportation's 
requirements be built, be added to the Act so that we have 
assurances that at least those mitigations, which 
understandably don't deal with the visual mitigation 
requirements of the Wild and Scenic Rivers Act, that at least 
those go forward. So my question, and the author is not here, 
but I guess I am going to the Chairman here. If this bill is to 
move forward, that it be modified to address those two 
concerns. So, Mr. Chairman, if you would consider that in 
discussions with the author, it would seem to me that at least 
that would be taken care of.
    My question to the Department is, am I correct at least 
that part of your concerns?
    Mr. Whitesell. You are correct, sir.
    Mr. Garamendi. Thank you, Mr. Chairman, I leave it in your 
hands.
    Mr. Bishop. Do you have other questions you had? Or, we 
will come back again? Let me ask a few if I could. Starting 
with Mayor Beaudet. As I understand it, you are not opposed to 
a bridge, you are just opposed to this particular.
    Mr. Beaudet. Yes, Mr. Chair.
    Mr. Bishop. And, so----
    Mr. Beaudet. Can I just expand a little bit? Mayor Harycki 
suggested that the current highway layout was for the current 
proposed bridge. Actually, the current highway layout was a 
replacement bridge in the central corridor, which the Park 
Service could support in the late '50s and early '60s and the 
City of Stillwater decided not to leave, not to have the 
traffic on its main street and wanted that bridge not to be 
built. So the original highway plan, at the time when that road 
was built was to actually have a central corridor bridge.
    Mr. Bishop. All right, but any bridge would then take some 
kind of a waiver?
    Mr. Beaudet. No, that would not be true, Mr. Chair. There 
have been four bridges replaced in the Wild and Scenic River 
today, from the time that this act was created. Two bridges in 
the northern unit between Minnesota and Wisconsin. The Prescott 
Bridge was replaced and one of the bridges of Interstate 94 
have all been replaced, all within, with approval of the 
administration of the National Park Service.
    Mr. Bishop. Mr. Whitesell, do you agree with that?
    Mr. Whitesell. I am not, I don't know the specifics of 
those other bridges. What I can say, Mr. Chairman, is that the 
Park Service would evaluate any bridge proposal on the merits 
of that particular proposal.
    Mr. Bishop. All right. I have some other questions for you 
later here. I do have a resolution, Mr. Beaudet, from Oak Park 
Heights regarding this, that says they have not taken a 
position on this particular bill. But it does show that they 
have concerns about the financing of this particular bill, so I 
am assuming that is what you are saying as well. I am asking 
now for consent to put that in the record.
    From the Stillwater mayor, if I could ask you, why were a 
smaller, maybe less expensive bridge option abandoned in favor 
of this current proposal?
    Mr. Harycki. It was quite simply we were looking at the 
future transportation needs of the region. And we did not want 
to build a bottleneck. We wanted to build something that would 
serve the needs of the region for many years to come.
    Mr. Bishop. OK, Mr. Geissler, it is mentioned that there 
are a couple of other hospital options that are in the area. 
Why is it important that residents have the access to your 
hospital as opposed to those that may be further?
    Mr. Geissler. The two hospitals in Wisconsin, which are 
also by the way part of our system of health partners, system 
of care. Both of those hospitals are critical access hospitals, 
so the capabilities of those facilities versus Lakeview 
Hospital in Stillwater are quite different. I would differ with 
Mayor Beaudet's opinion about advanced life support. I do 
believe one of the communities does offer that, offer advanced 
life support, which is the furthest from our service area. I 
don't believe the other does, but I could be wrong with that.
    And relative to transferring critical patients by 
helicopter, that works great when the helicopters are flying. 
Many times mechanical problems and weather prevents that. And, 
for example from our hospital, we don't ever use air 
transportation, it is always ground.
    Mr. Bishop. Thank you. Mr. Whitesell, the power plant that 
is built there, was that built before or after the designation 
as a Wild and Scenic River?
    Mr. Whitesell. My understanding was that it was before, 
sir.
    Mr. Bishop. Before the designation. OK. And you took that 
into consideration when you created the, as far as the 
criteria----
    Mr. Whitesell. Keep in mind it was Congress that created 
the Wild and Scenic River, not the National Park Service.
    Mr. Bishop. Yes, I know. Over the last couple of years, we 
have been doing a couple of those strange rivers in urban areas 
which have a difficult time meeting criteria. Let me ask you 
this. When the Park Service approved the bridge in 2005, it was 
based on a mitigation package which was the result of the 
negotiations from all those people. Do you now believe that 
there is no mitigation effort that will allow you to approve 
this bridge?
    Mr. Whitesell. This bridge as designed, that is correct. 
There is no mitigation measure that we are aware of that 
would----
    Mr. Bishop. Can mitigation be used to allow exceptions to 
other laws, like the Wilderness Act?
    Mr. Whitesell. I don't know, sir.
    Mr. Bishop. If you would find out and answer that in a 
written form, I would be appreciative of it. So tell me why you 
chose not to defend that 2005 evaluation. Who made the decision 
to completely reverse the course and abandon the work that you 
had done with the group?
    Mr. Whitesell. If I might, the Park Service has always 
maintained that there is a direct and adverse impact to the 
bridges that have been proposed. That part has never changed. 
What changed from the 2006 decision, or 2005, was in regards to 
whether the mitigation measures mitigated those direct and 
adverse impacts. Based on what the Court's evaluation in 2010 
and in our own subsequent follow up to that we believe there 
was an error in the decision that was made in 2005. And we 
believe that, as we noted to the Department of Transportation, 
that while we believe that should Congress decide to grant an 
exception, that the mitigation measures needed to be added to 
that, those mitigation measures do not eliminate the direct and 
adverse impact to the Wild and Scenic Rivers Act.
    Mr. Bishop. I have other questions, but Mr. Grijalva, do 
you have others?
    Mr. Grijalva. Not at this time.
    Mr. Bishop. Can I just finish off with you then? Mr. 
Whitesell, it would seem then that your request for the 
mitigation seems unusual in the fact that it does not ever 
solve any of your problems. You would have a problem with this 
bridge whether there is mitigation or not.
    Mr. Whitesell. That is, we do. The mitigation is actually, 
are mitigation measures that would be needed to mitigate, as I 
mentioned before, Section 4f of the Federal Transportation Act. 
Separate issues.
    Mr. Bishop. Like you say, it is a Congressional decision 
that would be made. That is why I find it unusual that you 
would insist on having the mitigation when it has no impact on 
moving the project forward or not. Whether it is mitigation or 
not, you are still not going to like the bridge.
    Mr. Whitesell. That is correct. But----
    Mr. Bishop. So, we will cram it down your throat but you 
still want us to pay on the side, as well.
    Mr. Whitesell. We want you to make this project as, if it 
were to go forward, as visually unintrusive as possible. And so 
we are recommending to Congress, as part of our evaluation of 
Section 4f, that those mitigation measures be included.
    Mr. Bishop. Well, let us pretend that I am not a teacher 
and I was a business man, why would I want to support you when 
you are not going to help me out in the end?
    Mr. Whitesell. I am not sure we are negotiating this 
matter, sir. All we are saying is that Congress has said to us 
to provide our best evaluation and our evaluation is that there 
is a direct and adverse impact.
    Mr. Bishop. But we have precedents to waivers all over the 
place. I mean, every, in many Wild and Scenic Rivers there are 
waivers that have been added to do things. Even having a Wild 
and Scenic River in that urban setting does not necessarily 
meet the criteria of a Wild and Scenic River. And, as you told 
me, the power plant was there before the designation----
    Mr. Whitesell. That is my understanding.
    Mr. Bishop. And that did not, you did not discriminate on 
that as a waiver of all impact before you created the Wild and 
Scenic River. It is difficult for me to understand the higher 
standard that you are trying to put on it now. And maybe that 
is simply because of the lawsuits that you have faced. But it 
seems strange. And I am sure that Congress will do what 
Congress will always do.
    Mr. Harycki, where will the new bridge be in relation to 
that power plant, and why does that new bridge help or hurt the 
scenic value of the area?
    Mr. Harycki. Well, in that area, just south of the power 
plant, Anderson Corporation has a very big factory. It is an 
industrial area of the river. You have the Anderson Plant, you 
go to the coal plant. There is a prison on top of the hill. 
There is a sewage treatment plant right at the base of the 
bridge. So the diagram shows the placement of the proposed 
bridge and it would be in that industrial area of the river 
versus the Sierra Club's proposal and we can distribute this 
afterwards to put it downtown, where if you are standing in our 
parks or anywhere in the historic area of Stillwater, all you 
would be seeing is bridge structures.
    Mr. Bishop. To create Wild and Scenic Rivers, we have 
different standards that have to be there. Recreation 
standards, that kind of stuff. Am I assuming that the objection 
to this particular bridge is only scenic and it does not impact 
recreation or any of the other crap that goes on in Wild and 
Scenic Rivers?
    Mr. Harycki. That would be correct. And in fact we are in 
support of this bridge, just to make that clear. It would add 
some access with the proposed mitigation package to put in 
bicycle trails and it would be a whole new group of people down 
to that section of the river to enjoy it. But like I said, 
right now it is a very industrial portion of the river. And so 
there is not, in my opinion, and I think in the opinion of 
probably the stakeholders too, that particular section of the 
river is not scenic. It is certainly not wild.
    Mr. Bishop. You said that there is a threat to health and 
safety of human life in that you are having all sorts of 
accidents that occur there because you are going from two to 
four then back to two, then back to four again. And this is in 
an area which, as far as its scenic beauty, is questionable at 
best.
    All right. I don't have any other questions, unless Mr. 
Grijalva does. I thank the witnesses for your testimony, for 
your time with us here. And, with that, I do want to announce 
the consent to put this resolution in the record. I think I 
already did that. And, Representative Young has some questions 
that we would like to put in the record for various 
individuals. We would ask for your response in a timely for 
that. I appreciate your patience with being here. And, with 
that if there is no further business, obviously not.
    Without objection, we stand adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

  Statement submitted for the record by The Honorable Elton Gallegly, 
 a Representative in Congress from the State of California, on H.R. 241

    Thank you Chairman Bishop and Ranking Member Grijalva for 
scheduling this hearing today on my bill, H.R. 241. This bill would 
authorize the Forest Service to conduct a land exchange with the White 
Lotus Foundation for a small parcel of land located on the perimeter of 
the Los Padres National.
    The White Lotus Foundation, a non-profit organization, has been on 
San Marcos Pass Road, about six miles north of Santa Barbara, for the 
past 25 years. The Foundation's property is adjacent to the Los Padres 
National Forest.
    Upon the purchase of this property, the Foundation began using the 
only road that allows White Lotus and the rest of the public access 
from San Marcos Pass Road to and from their property. Then, shortly 
afterwards the Forest Service notified the Foundation this short access 
road loops into Forest Service land and then back onto private 
property.
    In early 2008, the Forest Service sent a letter to the Foundation 
requiring them to remove all encroachments on Forest Service land by 
December 31, 2008, or they would begin enforcement action against the 
foundation.
    However, due to the very steep topography, the Foundation has no 
reasonable alternatives to move the portion of the access road that 
encroaches on the Forest Service property. The loops lies on flat 
ground, which has held equipment storage for fire and flood 
emergencies, and provided access to a water pump and other necessary 
equipment. There is no other flat ground on which to move these items, 
and without this space the Foundation will be forced to cease its 
operations.
    The actual loop area in question is approximately 2,000 square 
feet, or 0.05 acres. I think you can judge by the size of this 
encroachment that I am merely trying to solve this issue in a manner 
that will satisfy all the involved parties.
    My legislation will not cost the taxpayers. The White Lotus 
Foundation will pay for the land, the survey, and all administrative 
costs. There are no exemptions from NEPA or any other environmental 
laws. The land in question is not protected wilderness or any other 
specially designated area. And finally, my legislation doesn't even 
mandate the Forest Service to do anything. It merely allows the Forest 
Service to conduct a land exchange with White Lotus within two years of 
the bill becoming law, then if no piece of land is found to exchange, 
the Forest will have the authority, if they so choose, to convey the 
land to White Lotus.
    It is also my understanding that the Committee will offer a minor 
technical amendment to this legislation during Committee markup. I am 
fully supportive of this amendment.
    I look forward to this hearing and your questions. Thank you.
                                 ______
                                 

         Statement of The Honorable Ron Kind, a Representative 
          in Congress from the State of Wisconsin, on H.R. 850

    Mr. Chairman, thank you for the opportunity to submit testimony in 
regards to H.R. 850, a bill that would facilitate the construction of a 
bridge in the Lower St. Croix Riverway. A new bridge is a top priority 
for my constituents in Western Wisconsin and I have worked for more 
than 14 years to help resolve issues surrounding its design, 
development, and construction. While I understand the concerns some may 
have about this project, and its potential impact on the Wild and 
Scenic Rivers Act, there exists today a broad consensus that the 
current crossing is in need of replacement and that Congress must act 
to allow for the construction of a new bridge. I strongly support 
legislation that would authorize the St. Croix River Crossing Project 
to move forward, in accordance with the Federal Highway 
Administration's 2006 Record of Decision, which includes a detailed 
mitigation package developed in a unique stakeholder review process.
    Today, motor vehicles crossing the St. Croix rely on the Stillwater 
Lift Bridge, which was built in 1931. The bridge includes a vertical 
lift span that rises to allow boat traffic through the river. This 
historic 80-year old structure is closely identified with the Lower St. 
Croix Riverway and was placed on the National Registry of Historic 
Places in 1989. While an admirable structure and innovative for its 
time, today the Lift Bridge is woefully inadequate in handling the 
region's transportation needs. The region immediately east of the 
current crossing has seen significant population and economic growth in 
recent years. We have also seen an increase in tourism as more and more 
Americans come to visit the St. Croix Valley and see this remarkable 
place, which I am proud to represent. The increase in motor vehicle 
traffic crossing the Lift Bridge has resulted in extensive congestion 
on both sides of the border. The roadways leading to the bridge are 
already at full capacity and simply cannot be expanded or improved 
under the status quo. Traffic is stopped on a regular basis to allow 
for the Lift Bridge to raise and allow boat traffic to pass through the 
river, again adding to the congestion. And just last month, as 
floodwaters rose, the Stillwater Lift Bridge was forced to close for 10 
days and travelers were forced to detour 15 miles to the next nearest 
crossing.
    Aside from these concerns, the Lift Bridge suffers from severe 
structural, operational, and maintenance issues--not uncommon for an 
80-year old structure. The Lift Bridge is ``structurally deficient'' 
due to its high potential for flooding, which requires closing the 
crossing; ``functionally obsolete'' due to its narrow lanes, lack of 
shoulders, and low vertical clearance; and ``fracture-critical'' due to 
a design that would lead to a collapse of the bridge if just one of its 
main trusses were to fail.
    I am very familiar with this Project and have worked closely with 
all stakeholders to generate consensus around a way forward. After an 
initial effort in 1998 was halted in 2001 due to lack of funding, I 
worked with the U.S. Institute of Environmental Conflict Resolution and 
the facilitation firm RESOLVE to bring together 28 different 
stakeholders representing a wide variety of interests associated with 
the Project at the federal, state, and local level. In 2002, President 
George W. Bush helpfully contributed to this process by issuing 
Executive Order 13274, which sought to streamline the environmental 
review of seven transportation infrastructure projects, including the 
St. Croix River Crossing Project.
    I was pleased that all stakeholders faithfully participated in the 
process and meaningfully contributed to its improvement. As a result of 
their work, a new and different universe of alternatives was 
considered, featuring different locations, sizes, and types of bridges. 
The stakeholders carefully crafted extensive mitigation measures 
designed to restore some developed areas to a more natural state, 
preserve the riverway, implement growth management, and preserve 
historical resources. The new Project now featured a different 
location, with a shorter, more perpendicular river crossing. The 
initially proposed steel/concrete girder bridge was abandoned in favor 
of an extradosed bridge, which would have fewer piers in the water. 
These stakeholders met 19 times over the course of three years to work 
through all issues associated with the development of this Project. 
Every stakeholder made concessions to accommodate the concerns of 
others and I appreciate that 27 of the 28 organizations agreed to allow 
the newly redesigned St. Croix River Crossing Project to move forward.
    The Sierra Club North Star Chapter dissented and subsequently sued 
to halt work on the Project, arguing that the Project was in violation 
of the Wild and Scenic Rivers Act. In March 2010, the U.S. District 
Court of Minnesota ruled that the National Park Service's 2005 Section 
7(a) evaluation was ``arbitrary and capricious'' in finding that its 
proposed mitigation package could offset a direct and adverse impact 
the new structure would have on the Riverway's scenic and recreational 
value. The National Park Service then produced an updated Section 7(a) 
evaluation in 2010 that reversed key findings of its 2005 evaluation, 
now finding that the Wild and Scenic Rivers Act does not allow for any 
mitigation measures to offset the direct and adverse impact any new 
structure would have on the Riverway's scenic and recreational value. 
As a result of this legal impasse, Congressional authorization is now 
needed to move the Project forward.
    Today, the organizations that are in opposition to this Project 
advocate for a ``lower, slower'' bridge that has the potential to be 
less costly and have less of a visual impact on the viewshed of the 
Riverway. The suggestion underlying this notion is that the Stakeholder 
Review Process failed to consider an adequate range of alternatives in 
reaching its conclusion. This is simply not true. Stakeholders analyzed 
alternate locations and sizes and reached two major conclusions. First, 
the alternate locations would have a greater impact on Section 106 
properties, Section 4(f) park properties, Section 7(a) bluff areas, 
floodplains and wetlands then the preferred project. Second, the 
alternatives would fail to meet the transportation needs of the 
project. It simply does not make sense to build an expensive structure 
that fails to address the immediate and long-term congestion problems 
facing the region.
    Furthermore, even if stakeholders were to design a ``lower, 
slower'' bridge, National Park Service Director Jon Jarvis has 
testified that such a bridge would still require Congressional 
authorization to overcome its direct and adverse impact on the Lower 
St. Croix Riverway.
    As a former member of the Natural Resources Committee, I am acutely 
aware of the importance of the Wild and Scenic Rivers Act and have 
consistently sought to ensure its integrity throughout this process. It 
is my understanding that the National Park Service will provide 
testimony identifying ways that this bill can be improved. I strongly 
believe that the Committee should work with the Park Service to make 
these changes to the bill's language. It is essential that the 
Committee narrowly tailor the bill as this has the potential to set a 
precedent when needed transportation projects are found to be in 
conflict with the Wild and Scenic Rivers Act.
    Today, residents throughout Western Wisconsin find the status quo 
to be simply untenable. Notably, of the seven projects that President 
Bush sought to streamline in his 2002 executive order, the St. Croix 
River Crossing Project is the only one that today remains incomplete. 
Suggestions that the Project needs to go through yet another redesign 
are not productive and will only result in further delaying 
construction and raising the cost of a much-needed replacement bridge. 
I look forward to working with the Committee, the National Park Service 
and the Department of Transportation to ensure that the St. Croix River 
Crossing Project is allowed to move forward as quickly as possible.
                                 ______
                                 
    The documents listed below were submitted for the record and have 
been retained in the Committee's official files.
    <bullet>  American Rivers, Letter to Chairman Bishop and Ranking 
Member Grijalva dated May 3, 2011, from David Moryc, Senior Director, 
River Protection Program
    <bullet>  Bonestroo, Rosene, Anderlik and Associates, Inc., 
``Economic Impact of St. Croix River Crossing''
    <bullet>  Letter in opposition to H.R. 850 from group of 
organizations for environmental protection (individual organizations 
listed below):
        <all>  Alliance for Metropolitan Stability
        <all>  Alliance for Sustainability
        <all>  Audubon Minnesota
        <all>  Carpenter /St. Croix Valley Nature Center
        <all>  Clean Up the River Environment (CURE)
        <all>  Duluth Audubon Society
        <all>  Environmental Law and Policy Center
        <all>  Fresh Energy
        <all>  Friends of the Mississippi River
        <all>  Institute for Local Self-Reliance
        <all>  Izaak Walton League of America--Midwest Office
        <all>  Izaak Walton League of America--Minnesota Division
        <all>  Land Stewardship Project
        <all>  Mankato Area Environmentalists
        <all>  Minnesota Center for Environmental Advocacy
        <all>  Minnesota Food Association
        <all>  Parks and Trails Council of Minnesota
        <all>  Sierra Club North Star Chapter
        <all>  Sierra Club John Muir Chapter
        <all>  St. Croix River Association
        <all>  St. Croix Scenic Coalition
        <all>  St. Paul Audubon Society
        <all>  Transit for Livable Communities
        <all>  Voyageurs National Park Association
    <bullet>  Manglona, Hon. Paul A., Senate President, Northern 
Marianas Commonwealth Legisalture, Letter to Delegate Gregorio Sablan 
dated March 15, 2011
    <bullet>  Mendiola, Hon. Melchor A., Mayor, Municipality of Rota, 
Commonwealth of the Northern Mariana Islands, Letter to Delegate 
Gregorio Sablan dated March 30, 2011
    <bullet>  Minnesota Department of Transportation, TH 36 Corridor 
Management Plan, dated May 2001
    <bullet>  National Park Service, U.S. Department of the Interior, 
``Section 7(a) Evaluation, Wild and Scenic Rivers Act, Proposed New St. 
Croix River Crossing''
    <bullet>  Newspaper article, ``Funding for bridge appears to be 
lining up'' by Jeff Holmquist
    <bullet>  City of Oak Park Heights, Memorandum to Oak Park Heights 
Business Community, regarding ``Communication to City Businesses--STH 
36/St. Croix River Crossing Project--Current Position of City of Oak 
Park Heights'' dated October 15, 2010
    <bullet>  City of Oak Park Heights, Resolution regarding H.R. 850
    <bullet>  Photo, Old Bridge Crossing 2011
    <bullet>  Photo, Powerplant 2011
    <bullet>  Photo, Prescott Bridge 2011
    <bullet>  Polis, Hon. Jared, a Representative in Congress from the 
State of Colorado, Testimony of John Winchester on H.R. 3923, Sugar 
Loaf Fire Protection District Land Exchange Act of 2009, dated April 
27, 2010 submitted for the record
    <bullet>  Polis, Hon. Jared, a Representative in Congress from the 
State of Colorado, Letter in support of H.R. 765
    <bullet>  Santos, Hon. Teresita A., Representative, 17th Northern 
Marianas Commonwealth Legislature, Written testimony on H.R. 4686 dated 
April 27, 2010, submitted for the record by Hon. Gregorio Sablan 
regarding H.R. 1141
    <bullet>  Santos, Hon. Teresita, Representative Marianas 
Commonwealth Legislature, Letter to Chairman Bishop
    <bullet>  SRF Consulting Group, Inc., ``St. Croix River Crossing 
Benefit-Cost Analysis Memorandum'' dated May 5, 2004
    <bullet>  United States Department of the Interior, Memorandum 
regardion ``Section 7 determination for proposed new crossing of the 
St. Croix River (Public Notice 96-04143-IP-RJA)''
    <bullet>  Wisconsin Department of Transportation, Photo of proposed 
St. Croix Bridge
                                 ______
                                 

Statement of The Honorable Betty McCollum, a Representative in Congress 
    from the State of Minnesota, in Opposition to St. Croix Bridge 
                              Legislation

    Chairman Bishop, Ranking Member Grijalva, Members of the 
Subcommittee:
    Minnesota residents deserve a replacement for the existing, 
outdated lift bridge over the St. Croix River connecting Stillwater, MN 
to western Wisconsin. I strongly support a fiscally responsible, 
appropriately-scaled transportation solution for the St. Croix River 
crossing in Stillwater. There is consensus that a new bridge is needed. 
However, there is intense debate and controversy over the specific 
design and overall cost of the proposed replacement bridge that H.R. 
850 would permit. Therefore, this legislation can only be described as 
a stalking horse for an excessively expensive mega-bridge to be built 
only six miles from the existing eight lane Interstate-94 St. Croix 
River crossing.
    While this debate is new to most Members of Congress, it is a 
debate that I have been involved in throughout my twenty-five year 
career in public service. In fact, the St. Croix crossing has been 
discussed locally for thirty years. During that period, numerous bridge 
replacement proposals have come and gone. Be assured, passage of H.R. 
850 will not end debate or controversy over this proposed St. Croix 
crossing.
    Irrespective of the bridge proposal in question, this Committee 
should reject H.R. 850 as an unprecedented assault on one of the most 
successful laws to protect America's natural treasures. The Wild and 
Scenic Rivers Act preserves the nation's finest rivers for future 
generations. The Act protects 11,000 miles of 166 rivers in 38 states 
and the Commonwealth of Puerto Rico. Inclusion in this system is a 
highly selective distinction: protected rivers amount to one-quarter of 
one percent of America's rivers. The St. Croix is the only river in 
Minnesota protected under the Wild and Scenic Rivers Act and gained 
this protection only after enormous effort from leaders such as former-
U.S. Senator and Vice-President Walter Mondale.
    Since the Act was passed in 1968, only extremely rare modifications 
have been granted by Congress. Passage of H.R. 850 would set a new, 
dangerously low standard for granting exemptions to the Wild and Scenic 
Rivers Act that threatens every mile of every protected river in this 
national system.
    The legislation under review today capriciously ignores the legacy 
of stewardship that millions of Americans enjoy today because of the 
law. H.R. 850 uses only 41 words to end over 40 years of federal 
protection for the St. Croix River. Regretfully, the effect of this 
legislation would be far less economical than its language. This 
legislation would ``deem'' a $700 million bridge over the St. Croix 
River to be consistent with the Wild and Scenic Rivers Act. But in 
October 2010, after careful review, the National Park Service 
determined this specific bridge proposal was not consistent with the 
Act. H.R. 850 simply disregards the Park Service finding and states 
fiction as fact.
    If Congress were to take the extraordinary step of granting an 
exemption to the Wild and Scenic Rivers Act, the bridge proposed in 
H.R. 850 is not deserving of the precedent. This $700 million bridge 
proposal is excessively expensive and would likely impose huge unfunded 
costs on the communities I represent.
    Following the 2007 collapse of the Interstate 35 Bridge over the 
Mississippi River in Minneapolis, a new state-of-the art bridge was 
constructed in record time for $260 million (this figure includes a $27 
million contractor bonus for early completion). The bridge H.R. 850 
enables to be built would cost taxpayers nearly three times as much the 
Interstate 35W Bridge, but serve only a fraction of the traffic. 
(Currently, around 18,000 vehicles cross the St. Croix River in 
Stillwater each day.) In this time of record deficits at the federal, 
state and local level, elected leaders must carefully consider the 
value of every investment. The bridge in H.R. 850 fails every common-
sense test of taxpayer value.
    Closer inspection of the proposed St. Croix Bridge reveals the true 
costs of the project may be much higher. There has been little 
attention paid to the traffic congestion that a new interstate-style 
bridge in Stillwater would add to the State Highway 36 corridor, 
including the cities of Oakdale, Maplewood, Mahtomedi, Roseville and 
North St. Paul. If there is enough traffic projected to justify 
building a bridge that costs nearly three times as much as the new 
Interstate 35W Bridge in Minneapolis then the communities along State 
Highway 36 should expect to be overrun with thousands more semi-trucks, 
buses, and daily commuters. Expanding State Highway 36 to accommodate 
an interstate-style bridge in Stillwater could raise the true cost of 
the mega-bridge project close to one billion dollars. Local elected 
officials from communities along State Highway 36 are raising concerns 
over the unfunded costs that H.R. 850 could impose on their taxpayers.
    The full cost of the bridge proposed in H.R. 850 is unknown and the 
value of this public investment is deeply in doubt. Thankfully, the 
Wild and Scenic Rivers Act is forcing a closer review of this proposal. 
The Act is safeguarding the environmental integrity of the St. Croix 
River and also protecting taxpayers from wasteful government spending. 
Granting an exemption to the Wild and Scenic Rivers Act would be 
nothing short of fiscally reckless and a violation of the principle of 
local control.
    It is possible to build a new bridge that meets the requirements of 
the Wild and Scenic Rivers Act, solves the longstanding transportation 
problem in Stillwater, and guarantees state and federal taxpayers a 
responsible return on their investment. I strongly support construction 
of a bridge that satisfies these reasonable expectations. My 
experience--and plain Minnesota common sense--suggests the fastest path 
to a new bridge is the path of consensus and fiscal responsibility. The 
Interstate-35W Bridge over the Mississippi River in Minneapolis is 
proof that Minnesota can build a new bridge in record time when there's 
community consensus around a sensible plan. An affordable St. Croix 
bridge could be designed and constructed long before the interstate-
style bridge proposal and offer taxpayers much greater value.
    I strongly urge Members of this Committee to support fiscal 
responsibility and environmental protection and oppose H.R. 850.
    Mr. Chair, I request permission to insert the attached letter 
addressed to the Committee from Maplewood, Minnesota Mayor Will 
Rossbach into the hearing record.
                                 ______
                                 
    [The letter from The Honorable Will Rossbach, Mayor, City 
of Maplewood, Minnesota, submitted for the record by Ms. 
McCollum follows:]

May 2, 2011

To Members of the House Committee on Natural Resources,

    I am writing to ask your consideration of the difficulties which 
will be created for the local government units which lie west of the 
cities of Stillwater and Oak Park Heights along the Highway 36 corridor 
if the current proposal for a new freeway type bridge is approved as an 
individual improvement and not as a regional project.
    I want to be clear that a new bridge is absolutely necessary to 
cross the St. Croix River in the Stillwater, Oak Park Heights area. The 
existing bridge is in a condition which should have warranted its 
closure years ago and only is still in use due to the lack of ability 
to find common ground for an alternative. The current bridge rating is 
below the rating of the Interstate 35 Bridge when it collapsed into the 
Mississippi River.
    This being understood if a new bridge is approved without 
consideration of the impacts that will be had by all of the communities 
which share the Hwy 36 corridor the problems which are currently being 
experienced at the river will simply be transferred to the West and 
will create unnecessary burdens for those communities.
    The Highway 36 corridor is currently operating at or near capacity 
and the existing bridge carries 18000 vehicles per day. The 2030 
projections for a new bridge indicate that approximately 30,000 
additional trips will be generated in the corridor which passes through 
the communities which lie to the West of the area. There is not any 
plan in place at this time to deal with the additional traffic which 
will be generated in the corridor without a new bridge let alone with 
the addition of the additional traffic which a new bridge would create. 
This situation on a regional basis needs to be considered with the 
understanding that there are no approved mass transit corridors 
anywhere in the region which could be viewed as a means to help to 
reduce the future flow of traffic in the Hwy. 36 corridor.
    The current corridor is not currently at, nor is it currently 
planned, to have improvements constructed to bring it up to freeway 
standards in the 2030 planning period. Instead it is a corridor with 
limited lane volume restricted by several bridges and right of way 
which uses semaphores as traffic control devices a numerous 
intersections along its route.
    The cost that is currently being contemplated for the bridge is to 
me unbelievable. In the City of Maplewood we have been attempting to 
find funding to eliminate one of the existing semaphores which would be 
a project that would help to enhance traffic flow that is currently 
backed up by the intersection control for miles during rush hour, and 
have not to date been able to secure the 5 to 6 million dollars we need 
to supplement our funding to proceed with the project. It would be a 
poor use of funds to dedicate close to 700 million dollars to a bridge 
that would create lack of capacity all along the corridor it is 
intended to serve. A more reasoned approach would be to construct a 
bridge which would be sized to accommodate the current traffic flow 
along with the reduced projections which would be generated by a 
properly scaled bridge and at the same time make the improvements 
needed to provide a fully functioning corridor.
    You have an opportunity before you to resolve a dispute that has 
been ongoing for 20 to 30 years and desperately needs to have a 
solution, I urge you to find that solution but do so in a way that 
creates a fully functional traffic corridor and not waste such a large 
amount of funds over building one part of the corridor while creating 
numerous new problems along the entire length of the remaining 
corridor.

Respectfully submitted,

Will Rossbach
Mayor, City of Maplewood
                                 ______
                                 

    Statement submitted for the record by Aaron Schutt, Senior Vice 
   President and Chief Operating Officer, Doyon, Limited, on H.R. 441

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to provide written testimony on HR. 441, a bill to 
authorize the Secretary of the Interior to issue permits for a micro 
hydro project in non-wilderness areas within the boundaries of Denali 
National Park and Preserve, to acquire land for Denali National Park 
and Preserve from Doyon Tourism, Inc., and for other purposes. I would 
especially like to thank my home state Representative. Congressman Don 
Young, former Chairman of this Committee and current Chairman of the 
Indian and Alaska Native Affairs Subcommittee, is the sponsor of this 
legislation. My name is Aaron Schutt, I am the Senior Vice President 
and Chief Operating Officer of Do yon, Limited.
    Doyon is one of thirteen Alaska Native Regional Corporations, 
formed under the Alaska Native Claims Settlement Act of 1971 (ANCSA). 
Doyon has more than 18,000 Alaska Native shareholders, and we are proud 
of our record on behalf of those shareholders. Our mission is to 
promote the economic and social well-being of our shareholders and 
future shareholders, to strengthen our Native way of life and to 
protect and enhance our land and resources.
    The issue that brings my interest to you today involves Doyon's 
effort to improve our energy efficiency and environmental footprint on 
our in-holdings within the Denali National Park. The Kantishna Hills 
Renewable Energy Act provides an avenue for Doyon to develop a 
renewable energy system to provide electrical power to the Kantishna 
Roadhouse. The Kantishna Roadhouse is a full service wilderness lodge 
providing overnight accommodations to Denali National Park visitors.
    Owned and operated by Doyon Tourism, a wholly-owned Doyon 
subsidiary, the Kantishna Roadhouse is located on an in-holding within 
Denali National Park. Kantishna Roadhouse serves thousands of Park 
visitors each year. As it is located 100 miles inside the Park,. the 
Roadhouse is not connected to any utility grid and must produce 100% of 
its electrical energy onsite. Currently, our power comes from a diesel 
generator. This system requires trucking several thousand gallons of 
diesel fuel through the Park each year. We run the generator on a 
twenty four hour basis through the entire operating season. Doyon 
Tourism strives to provide our services in the Park and on our lands in 
the most environmentally respectful way.
    Doyon is facing several problems with the construction of this 
renewable energy project, thus the need for this legislation. Of 
primary concern is the laud ownership. While Doyon currently owns the 
proposed location of the microchydro power plant, it does not own some 
of the laud needed for the project. This legislation addresses this 
problem.
    In early 2010, Doyon received a Tribal Renewable Energy Grant from 
the Department of Energy. We wanted to use part of that grant to 
install a micro-hydro power generation system at the Kautishna 
Roadhouse. However, due to time limitations on the use of those funds, 
restricted access periods to our facility inside the Park, the limited 
construction season in Alaska and the lack of an access point from the 
National Park Service we do not believe we will be able to make use of 
this grant at this time. Doyon remains committed to this project, 
however, if the laud ownership issues can be addressed.
    This micro-hydro project is modeled after the system installed at 
the Park Service's recently renovated Eielson Visitors Center, also 
located deep within Denali National Park and Preserve. This renewable 
energy system would potentially provide up to half of our current 
electrical energy needs, offsetting an equivalent amount of diesel 
usage and its incumbent environmental footprint.
    Doyon has worked with the National Park Service for the past year 
to develop this legislation. HR. 441 has two parts. First, it allows 
the Park Serve to issue a permit to Doyon Tourism to build the proposed 
renewable energy project. Second, it calls on the Park Service to 
exchange lauds with Doyon so that all of the lands needed for the 
construction and operation of the micro-hydro project are owned by 
Doyon Tourism. In exchange, Doyon would provide an equivalent amount of 
acreage on a value-for-value basis from its other laud holdings in the 
vicinity of the Kautishna Roadhouse. Under the current agreement, six 
to seven acres would be exchanged between each of the two parties.
    In conclusion, I would like to reinforce my comments that this 
legislation is good for all the parties involved. HR. 441 will allow 
Doyon to move forward with a small renewable energy project. The 
project will substantially reduce all aspects of environmental 
footprint related to our current power generation system: fewer 
truckloads of diesel trucked in over the remote Park roads which in 
turn results in cleaner local air quality and less sound pollution in 
this remote area. Doyon believes this project mirrors the recent 
efforts of the National Park Service to achieve greater use of 
renewable energy at its facilities.
    Thank you for the opportunity to provide input to the subcommittee 
today. I would be pleased to provide written responses to any questions 
the Members of the Subcommittees may have regarding the Kantishna Hill 
Renewable Energy Act of 2011.

                                 <all>

</pre></body></html>
